<html>
<title> - PREPARING FOR REALITY: PROTECTING AGAINST WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 107-563]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-563
 
 PREPARING FOR REALITY: PROTECTING AGAINST WEAPONS OF MASS DESTRUCTION
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs







                        U.S. GOVERNMENT PRINTING OFFICE
80-610                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
             Kiersten Todt Coon, Professional Staff Member
              Richard A. Hertling, Minority Staff Director
       Libby W. Jarvis, Legislative Director for Senator Thompson
          Jayson P. Roehl, Minority Professional Staff Member
         Morgan P. Muchnick, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Cleland..............................................     4
    Senator Akaka................................................     5
    Senator Dayton...............................................     7

                               WITNESSES
                         Friday, June 28, 2002

Lewis M. Branscomb, Ph.D., Emeritus Professor of Public Policy 
  and Corporate Management and Emeritus Director of the Science, 
  Technology and Public Policy Program, Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University.............................................     7
Margaret A. Hamburg, M.D., Vice President of Biological Programs, 
  Nuclear Threat Initiative......................................    11
Janet Heinrich, Dr.PH., RN., Director, Health Care--Public Health 
  Issues, U.S. General Accounting Office.........................    14
William J. Madia, Ph.D., Director, Oak Ridge National Laboratory 
  and Executive Vice President, Battelle Memorial Institute......    16
J. Leighton Read, M.D., General Partner, Alloy Ventures..........    18

                     Alphabetical List of Witnesses

Branscomb, Lewis M., Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    45
Hamburg, Margaret A., M.D.:
    Testimony....................................................    11
    Prepared statement...........................................    66
Heinrich, Janet, Dr.PH., RN.:
    Testimony....................................................    14
    Prepared statement...........................................    75
Madia, William J., Ph.D.:
    Testimony....................................................    16
    Prepared statement...........................................    89
Read, J. Leighton, M.D.:
    Testimony....................................................    18
    Prepared statement...........................................    94

                                Appendix

Hon. John T. Hamre, President and Chief Executive Officer, Center 
  for Strategic and International Studies, prepared statement....    99
American Society for Microbiology, prepared statement............   121

Questions for the Record from Senator Akaka and responses from:
    Dr. Hamburg..................................................   132
    Dr. Heinrich.................................................   134









 PREPARING FOR REALITY: PROTECTING AGAINST WEAPONS OF MASS DESTRUCTION

                              ----------                              


                         FRIDAY, JUNE 28, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:38 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Cleland, and Dayton.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, all. This hearing will 
come to order. I want to welcome you to the Senate Governmental 
Affairs Committee's fourth hearing on the reorganization of our 
Federal Government to improve America's domestic defenses.
    I want to begin for the moment by thanking Senator Akaka 
(in absentia) who is Chairman of this Committee's Subcommittee 
on International Security,Proliferation and Federal Services, 
for his thoughtful and tireless work on many of the issues that 
we will be discussing today.
    Our task this morning, building on Senator Akaka's work, is 
to examine how a Department of Homeland Security can best meet 
the technological challenge of protecting Americans from 
attacks by weapons of mass destruction, and, of course, by that 
we mean chemical, biological, or nuclear weapons.
    It is self-evident, but worth repeating, that there is no 
greater threat and no graver danger than the use of such 
weapons on our soil, notwithstanding the terrible damage and 
death and destruction that we suffered from more traditional 
attacks, although used unconventionally, on September 11.
    The fight against terrorism might be described as brain-to-
brain combat. On those terms, America is very well-equipped to 
win. Our computer scientists, biotechnology innovators, 
electrical and mechanical engineers, doctors, chemists, 
physicists, and a whole range of other scientific and 
technological experts are the best in the world. They have 
repeatedly worked wonders and will continue to keep our Nation 
on the cutting edge of innovation.
    But our enemies will also improvise and innovate in ways to 
hurt more Americans, so we have got to marshal our scientific 
and technological strength to both defend and go beyond the 
capacity of those who would do us damage. We have got to 
leverage America's wealth of technological resources to counter 
current threats and anticipate new ones.
    In this hearing, we are going to consider both this 
Committee's proposals and the President's proposals for doing 
exactly that in the framework of a new Department of Homeland 
Security. In this particular area of homeland security, there 
is significant common ground between our legislation and the 
President's plan, but there are also differences and I want to 
briefly lay them out at the start and then hope to consider 
them as we go through this hearing.
    The first is organizational structure. Our proposal would 
create a Division on Emergency Preparedness and Response with 
FEMA, the current FEMA, at its center, and that division would 
be focused on response and preparedness, without regard to the 
nature of the particular threat. We would then also establish 
in our bill a separate Office of Science and Technology within 
the new Department of Homeland Security with the focused 
mission of coordinating all research and development related to 
homeland security, including but not limited to detection, 
prevention, and response to weapons of mass destruction.
    The President's proposal would place greater emphasis on 
emergency preparedness and response to threats from weapons of 
mass destruction, as I understand the proposal, and the 
separate division, which we call here the fourth division, 
called Chemical, Biological, Radiological, and Nuclear 
Countermeasures.
    So I want to explore today the nature of our response in 
structure in this new Department to chemical, biological, and 
nuclear attacks and to ask whether our preparedness and 
response for those attacks might not better be included in a 
division that oversees emergency preparedness and response 
generally, rather than in a separate division.
    Also, the President's proposed structure for the Department 
would embed science and technology development within the 
division devoted to countermeasures when, in my view, it is 
more productive and logical to place all R&D efforts, ranging 
from detection to protection to response, in an office focused 
solely on that task and to elevate that office to the highest 
level within the Department. That is why our proposal would 
create--the initial proposal that passed out of the Committee 
would create--an Office of Science and Technology to carry out 
that function.
    That brings me to a second area of concern and difference 
between the two proposals, which is research capability. The 
President's plan would transfer many research and development 
functions from existing Departments including: Health and Human 
Services, Department of Energy, Department of Agriculture, and 
the Department of Defense--to this new fourth Division on 
Countermeasures within the new Department.
    I want to make sure that when we bring these entities into 
the new Department, if we do, we leave the agencies and 
departments from which they came in good stead. We should also 
ensure that these entities are carefully and logically 
organized within the new Department, if, in fact, they are 
moved there, with clean and clear lines of authority.
    For example, the President's proposal suggests that the 
Department of Homeland Security will jointly manage biological 
research efforts in conjunction with the Secretary of HHS. As 
far as I can tell, and we have the experts at the table, there 
is no precedent for co-direction of Federal programs in this 
way, and I want to explore the wisdom of such an arrangement 
and how it might work if it were going to work.
    Third, rapid technology development and deployment. Here, 
since the initial bill was reported out of the Committee, I 
think some of my own ideas have developed, and that is why I 
want to explore the possibility of creating a new development 
agency within the new Department which might be called SARPA, 
which is Security Advanced Projects Research Agency, modeled 
closely after DARPA, the Defense Advanced Research Projects 
Agency in the Pentagon, which has become one of the great 
engines of innovation in American history.
    DARPA, as the witnesses know, was created by President 
Eisenhower in 1958, originally called ARPA, in response to the 
launch of Sputnik by the Russians. From the beginning, it was 
designed to be something different, a lean, flexible agency 
that identifies our military's technological needs and then 
leverages with funding the best minds in our country, in 
government--at the laboratories, for instance--in academia, and 
in the private sector to meet those needs.
    DARPA's nimble, aggressive, and creative approach has 
produced remarkably impressive and effective war-fighting 
technologies and has done so relatively quickly. And in the 
course of fulfilling that central mission, DARPA has also 
developed technologies with broad commercial and societal 
application, including something we now, today, call the 
Internet. That came from DARPA.
    I have high hopes and expectations for SARPA, the homeland 
security counterpart, which would be located possibly in the 
Office of Science and Technology that I mentioned. I think we 
need dozens of new security technologies and we need them 
quickly, and that includes devices and systems to detect 
chemical, biological, radiological, and nuclear devices, for 
instance, at borders, ports, and airports, but also devices 
that protect our cyberspace from devastating attacks and that 
safeguard our physical infrastructure from sabotage, or 
biometric devices that could do a better job at allowing for 
entry into secure facilities or filtering entry into secure 
facilities, or work to pioneer the next generation of so-called 
smart buildings that detect intruders and protect vital systems 
from being sabotaged. The range of potential projects is 
literally endless.
    One of the critical functions of the new Department must 
also be developing diagnostics, drugs, and vaccines to treat 
those who have been exposed to or infected by a bioterror 
agent, and this is a massive undertaking because, right now, 
the truth is, we have very few medical countermeasures 
available. That is why I think we have got to direct the 
Department to develop a national strategy for engaging the 
Nation's biotechnology and pharmaceutical firms as critical 
homeland defense allies and resources.
    In the end, we will need to consider enacting tax 
incentives, procurement provisions, liability reform, and a 
revised drug approval process to spur the development of these 
countermeasures, and I have actually drafted in legislation 
that would do some of those.
    Finally, I want to point out that if we are to muster all 
of America's brain power to win this fight against terrorism, 
the new Department of Homeland Security must work closely with 
and learn from the Department of Defense. The Pentagon has 
better technologies for detection, prevention, protection, and 
response to attack than anyone, anywhere. If our Department of 
Homeland Security is designed to reinvent all those wheels 
rather than selectively adapting, applying, and focusing DOD 
resources, that would be a mistake.
    Senator Cleland is here. He is the source of some of the 
best quotes I ever hear, so I want to just share with him one 
that I read recently from Winston Churchill, who we are both--
actually, all of us are fond of quoting, particularly in these 
days because of the challenges we face that are so different. 
In 1941, Churchill said in a speech to the British people in 
which he intended to both inspire the Allies and challenge, 
confront the Axis powers, he said to the Axis powers, our 
enemies, ``You do your worst and we will do our best.''
    Today, we know that our enemies will do their worst to 
apply technology to try to terrorize our people and disrupt our 
way of life. We have an urgent duty now to do our best to 
develop better technologies, to preempt, prevent, and protect 
against even their most advanced and unpredictable attacks, and 
I have no doubt that, working together, we will achieve that 
mission.
    Senator Cleland, thank you for being here.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. I find 
the title of the hearing, quite frankly, engrossing, 
``Preparing for Reality: Protecting Against Weapons of Mass 
Destruction.'' I think that really is where we are.
    Senator Sam Nunn, who is running the National Nuclear 
Threat Initiative Program, of which Dr. Hamburg is a part, and 
who had this Senate seat before I did for 24 years and was the 
former Chairman of the Armed Services Committee, has given me a 
couple of concepts that I am working off of that, I think, to 
embrace the new reality of certainly bioterrorism.
    First, Senator Nunn said the organizing principle of the 
Cold War was massing against the Soviet Union numbers of 
missiles, and nuclear warheads, and measuring that mass in 
throw weights and our ability to, in effect, mutually destruct 
ourselves. He said the new era should be marked by the 
organizing principle of working against catastrophic terrorism, 
not just terrorism, but catastrophic terrorism, I think he puts 
it in a proper light, that the real arms race now is not about 
missiles and throw weights and nuclear warheads. The real arms 
race is a race between now and the time that the terrorists get 
their hands on tools of catastrophic destruction--biological, 
chemical, or nuclear.
    So I think we are in a new era here. The whole challenge, 
it seems to me, for this country is pretty much two-fold. 
First, to go on the strategic initiative abroad, fighting 
terrorists abroad in their jungles, their caves, but being on 
the strategic defensive here. That means that we have to get 
our act together. It means we have to improve our coordination, 
cooperation, and communication in order to properly defend 
ourselves.
    That is why I support the Homeland Security Department 
initiative that came out of this Committee. I am an original 
cosponsor. It is one reason why I feel very strongly that the 
CDC in Atlanta should be the place where we place a center for 
bioterrorism preparedness and response. Thirty-four percent of 
the CDC's workload now has to do with bioterrorism. It is just 
not focused. It is not a place where either the Director of HHS 
or the Director of Homeland Security can call and get the word, 
the definitive word, on what is happening in terms of 
bioterrorism preparedness and bioterrorism response. I think we 
need that. That would improve coordination, cooperation, and 
communication tremendously.
    My questions today, Mr. Chairman, will be along the lines 
of what the panelists feel about how we can improve this 
Nation's preparedness and response, particularly in terms of 
bioterrorism, and particularly where we have, in effect, two 
main pieces of guidance in the Federal Government that split 
the Federal Government. One piece of guidance is a 1995 
directorate by President Clinton by Executive Order mandating 
the FBI to be the lead agency on terrorism, then in 1998 a law 
by the U.S. Congress naming the CDC as lead agency on 
bioterrorism.
    And in a case like the anthrax situation, you had both 
agencies going to the scene at the same time, one hopefully 
identifying it properly, the CDC, then the FBI shutting the 
crime scene down. So we have two conflicting pieces of guidance 
here. We need to straighten that out, get that protocol right 
before the next biological attack.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Cleland. I 
appreciate your being here. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
say good morning to our witnesses and thank you for being here 
today at this hearing as we discuss how the new Department of 
Homeland Security should address threats from weapons of mass 
destruction.
    I want to particularly thank my good friend, Chairman 
Senator Lieberman, for calling this hearing and to commend him 
for being what I consider the man of the hour and a 
distinguished leader by proposing legislation in the Senate on 
homeland security and holding hearings to deal with the 
critical issues that face our Nation. His bill, as you know, 
was considered and passed by this Committee before the 
President issued his and so I want to give him that credit and 
pronounce him as a great leader here in the Senate.
    I have been working with him on emergency preparedness and 
bioterrorism now, Mr. Chairman, for some time. We first asked, 
can a bioterrorism attack happen? This is a little while ago. 
Today, we ask, how can we reduce the threat? So it is a 
different kind of question that we ask today.
    The threats we face will continue to change as our 
adversaries mature and new adversaries emerge. Therefore, 
whatever format we choose for this new Department must be 
flexible, and flexible enough to adapt to these changes 
quickly.
    Unlike the Chairman's bill, the President's proposal would 
establish a fourth division in the Department of Homeland 
Security to develop policies against weapons of mass 
destruction. However, transferring bioterrorism and public 
health activities out of the Department of Health and Human 
Services and into a new agency has the potential to fracture 
rather than consolidate functions. We must be very careful to 
enhance rather than diminish our capability to meet emerging 
threats.
    This new agency should coordinate and facilitate research 
and development activities, which would encourage cooperation 
across agencies and disciplines. The new Department should 
identify research priorities. The proposed division can make 
sure that new countermeasures meet the needs of local, State, 
and Federal partners.
    American ingenuity and creativity are among our greatest 
assets, no question. We must harness this spirit and draw upon 
the vast resources of the private sector in our search for 
effective countermeasures.
    I recently met with inventors from Hawaii who are 
developing environmental detection techniques and air 
filtration devices. They contacted me because of their 
confusion over who they should approach within the government. 
Why not make this new Department a one-stop clearinghouse for 
information and guidelines on R&D opportunities?
    Research and development alone will not be effective if 
used inappropriately in preparedness efforts and training. The 
ability of local fire fighters, police officers, and doctors to 
respond to WMD terrorism must be improved.
    I am not convinced that splitting mitigation and response 
activities between two different under secretaries as proposed 
by the President will do this. Will shifting the authority for 
biomedical research to a Department of Homeland Security while 
leaving the expertise within HHS improve our ability to fight 
disease? Such actions seem unnecessary and could degrade our 
emergency preparedness efforts.
    The goal must be to reduce the loss of life and property 
and restore public confidence following a terrorist attack. We 
should focus our efforts not only on R&D, but in training 
appropriate individuals and the general public in what actions 
to take should we face a WMD event.
    As we work toward the objective, we should enhance the 
government's response to natural disasters and public health 
events. For example, we would need to ensure that APHIS has the 
resources and personnel to continue to protect Hawaii's fragile 
ecosystem while meeting its proposed new homeland security 
functions. We must be careful not to create a system that will 
divert personnel and resources to homeland security from core 
agency missions, thus making both less effective. We need a 
national strategy to identify how this new Department will make 
America safer and her people more secure. That is what we are 
here to do and we look forward to your thoughts on this matter.
    Thank you very much, Mr. Chairman, and I look forward to 
the testimony.
    Chairman Lieberman. Thanks, Senator Akaka. Before you 
arrived, when I gave my statement, I thanked you for your 
leadership in this area through your Subcommittee over many 
years. I regret that I did not repeat it when I introduced you, 
although somebody told me years ago that in Washington you know 
you are doing well when somebody compliments you when you are 
not in the room. [Laughter.]
    Senator Akaka. Thank you very much.
    Chairman Lieberman. So you are doing well, Senator Akaka. 
[Laughter.]
    Senator Dayton, thanks for being here.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you. I have nothing to say at the 
outset. I look forward to hearing from our witnesses. Thank 
you.
    Chairman Lieberman. Thanks. I want to give my three 
colleagues here a medal. I am the Chairman of the Committee, so 
I have to be here. Surprisingly--and I am thrilled to be here, 
may I say to the witnesses. [Laughter.]
    This is an important hearing. But what I am about to say to 
the three of them is, the Senate surprisingly finished its pre-
July 4 recess work yesterday, which it was expected to do 
today, so these three are here out of a sincere desire to be 
involved in these deliberations and I thank them very much.
    Senator Dayton. Mr. Chairman, I will just say these 
hearings have been outstanding. I have said that before, but it 
bears repeating. This series has been among the very best 
hearings I have attended in my 1\1/2\ years in the Senate, so 
thank you and your staff.
    Chairman Lieberman. Thank you, Senator Dayton. We have been 
very fortunate to have a great group of witnesses on an 
important topic and thanks for your substantial contribution to 
the hearings.
    Two announcements. There is an empty chair there, and 
sadly, it is Dr. John Hamre,\1\ who has terrible flu. He has 
submitted testimony and it will be part of the record. I 
believe we can release it to the press if there is interest, or 
maybe we already have. We will see him on another occasion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Hamre appears in the Appendix on 
page 99.
---------------------------------------------------------------------------
    Second, Senator Thompson wanted very much to be here today 
but he could not and he wanted me particularly to welcome Dr. 
Madia, who he is very proud to have here.
    Let us begin with Dr. Lewis Branscomb, Professor Emeritus, 
Public Policy and Corporate Management, JFK School of 
Government at Harvard, and co-chair of a very important 
committee about whose work he will report. Dr. Branscomb, we 
look forward to your testimony.

 TESTIMONY OF LEWIS M. BRANSCOMB, PH.D.,\2\ EMERITUS PROFESSOR 
OF PUBLIC POLICY AND CORPORATE MANAGEMENT AND EMERITUS DIRECTOR 
 OF THE SCIENCE, TECHNOLOGY AND PUBLIC POLICY PROGRAM, CENTER 
 FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL 
               OF GOVERNMENT, HARVARD UNIVERSITY

    Dr. Branscomb. Thank you very much, Mr. Chairman. I do want 
to discuss very briefly the work of the Committee on Science 
and Technology for Countering Terrorism at the National 
Academy's National Research Council. Our report, entitled 
``Making the Nation Safer: The Role of Science and Technology 
in Countering Terrorism,'' came out last Monday. I am very 
proud that Peggy Hamburg was a member of that Committee. So, 
too, was Ash Carter, who testified, I believe, on Wednesday----
---------------------------------------------------------------------------
    \2\ The prepared statement of Dr. Branscomb appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    Chairman Lieberman. Yes.
    Dr. Branscomb [continuing]. And a number of other 
distinguished Americans.
    Our report was completed and was in the final stages of 
report review when the President made his statement that he 
intended to send forward a bill, though we were complete and in 
press before I actually saw the details of it. But our report, 
in fact, was able to address two very important features that 
we believe ought to be in a Department of Homeland Security. 
But perhaps more important than that, this report, written by 
119 experts, vetted and very skillfully evaluated by 46 
independent experts, contains 134 detailed recommendations 
discussing the science and technology responses to a great 
variety of threats, which we said as little about as we had to 
in order to justify the conclusions.
    It is very important that you appreciate that ours was a 
report about catastrophic terrorism. We believe very strongly 
that there are many kinds of attacks that could be 
catastrophic--defined in terrorist sense. It is very important 
to appreciate that the legislative meaning, at least, of the 
words ``weapons of mass destruction'' do not cover all the--by 
any means--threats of catastrophic terrorism. Many of those 
threats could be caused by combinations of the use of 
conventional explosives, perhaps with a cyber attack, or 
perhaps with a radiological attack, which is surely not part of 
the weapons of mass destruction. Nevertheless, it is a source 
of terror, nonetheless.
    Chairman Lieberman. Dr. Branscomb, excuse me. How would you 
describe what happened on September 11? I was finding myself in 
my opening statement reaching for----
    Dr. Branscomb. Clearly catastrophic terrorism----
    Chairman Lieberman. Catastrophic terrorism.
    Dr. Branscomb [continuing]. But not done with weapons of 
mass destruction----
    Chairman Lieberman. Exactly.
    Dr. Branscomb [continuing]. Unless you want to accept a 
broader definition of that term, which I would be happy to do 
in the President's bill, in which the R&D function is attached 
to one of four divisions concerned with weapons of mass 
destruction as normally defined, as in the Department of 
Energy, as nuclear, biological, and military chemical weapons. 
Of course, we may interpret chemical as including explosives, 
indeed in tank cars of industrial chemicals which, under 
certain circumstances, could produce catastrophic consequences.
    So we believe it is very important to look at the full 
range of possible attacks that would be intolerable if carried 
out against the United States.
    Senator Dayton. Mr. Chairman, may I just interject?
    Chairman Lieberman. Yes, please.
    Senator Dayton. I am sorry, and I know you do not intend 
this, but there was an attempted catastrophic attack of mass 
destruction, I do not know about the term, but we were told by 
Mayor Giuliani when we were at Ground Zero the following week 
that there were 25,000 people evacuated from the two towers 
because they did not collapse immediately. The Pentagon plane 
fortunately hit a relatively unpopulated area. The other plane 
was heroically crashed before it could reach its intended 
target. The losses to those individuals and the psychic damage 
to the country, was massive. So I do not dispute your 
characterization, but I do not want anyone here listening to 
think that we do not treat this as an attempt of a mass 
destruction which was partially executed.
    Dr. Branscomb. Indeed, Mr. Dayton, that is exactly what I 
meant to say. We regarded that as a catastrophic terrorist 
attack and our report is about catastrophic attacks. The reason 
I have avoided using the word ``weapons of mass destruction'' 
is because in prior legislation and in a lot of public policy 
work, those words do not include the cyber attacks, they do not 
include ordinary chemical explosives, they do not include two 
tank cars full of two industrial chemicals of the appropriate 
kind being brought together side-by-side and somehow combined.
    I really do not want to talk about things that I would just 
as soon al Qaeda not know about, but I can tell you, there are 
many major catastrophes that could involve more than 1,000 
people killed, more than $10 billion worth of damage done, or 
even with less than that that cause the people to be so 
horrified and so frightened that they lose confidence in the 
government's ability to protect them. This is my personal 
definition of catastrophic terrorism.
    Chairman Lieberman. This is an interesting and important 
discussion. I think your point is well taken, and in some ways, 
we have grown a little bit sloppy by referring as if it were an 
exclusive definition to chemical, biological, and nuclear, as 
weapons of mass destruction, as if they were the only weapons 
of mass destruction. In fact, as you point out, there was 
obviously mass destruction on September 11 without the use of 
chemical, biological, or nuclear weapons. It was catastrophic. 
That is perhaps a more inclusive term.
    Dr. Branscomb. When we became aware that the President 
intended to submit legislation and, therefore, there was a high 
likelihood that we would have a bipartisan conclusion and there 
would be a Department created, we were still in operation so we 
were able to draw two very important--well, really three very 
important conclusions about any department, however it was 
structured.
    One was that it must have a senior technical officer. 
Counterterrorism is a technology problem. This Department is 
going to be a technology department and the best asset we have 
in this country, as you yourself said, are the brains and 
talents and enthusiasm, indeed, of the technical community to 
get behind this problem and see what we can do to substantially 
reduce it.
    The other recommendation was something that we always had 
in there because we think it ought to be done now, even while 
there is an Office of Homeland Security and not yet a 
department, and that is the creation of what we call the 
Homeland Security Institute. What we have in mind here is a 
very specific notion. We believe very strongly that the biggest 
problem in utilizing scientific and technical capability is to 
truly understand what the problems are, that is, what the 
threats are, what the vulnerabilities are, and how to do the 
risk analysis, how to model and simulate the threats and the 
vulnerabilities, how, in fact, to design test beds to determine 
what kinds of technologies actually work, to put together red 
teams, to test the technologies, at least virtually, and find 
out if they are working.
    Ours is not a report with an R&D list of things to fund. 
This is a report that is aimed at giving the Nation truly the 
capability that it requires, no nonsense business. Therefore, 
we do deal extensively with our concerns about how the 
government goes about getting this work done, even though it 
does not deal specifically with the structure of a department.
    Let me also say that the report does provide, we believe, a 
very useful tool to the Congress and the administration for 
testing what alternative forms that the Department might take 
would most effectively permit the government to use the science 
and technology capability to good use because we do, we 
believe, describe the criteria or the conditions that really 
are important for this R&D to be effective. As I just said a 
few minutes ago, the first of those conditions is that we truly 
know how to set the priorities. There is an enormous range of 
vulnerabilities. I do not think we can cover them all with the 
same level of effort, or even should try. The critical ones 
deserve the attention.
    Now, one other principle I would like to address is not so 
explicitly given in our study but it is something that Dr. 
Klausner and I--we were the co-chairs of this study--believe is 
an important principle, and the principle is not addressed in 
either of the two bills, although the bills imply how this 
would be done.
    The issue is this: We know that even if the administration 
puts R&D activities into a department, it is only going to put 
a tiny fraction of the government's capability in science and 
technology. We had a huge capability developed all through the 
Cold War. So the question is, how would the Department acquire 
or access the capabilities of those departmental resources for 
getting urgent research done, and there are three 
possibilities.
    The first, nobody wants to do. That is to move the entire 
enterprise and have the Department be the government.
    The second one is to do what I believe the President's bill 
suggests they intend, at least with respect to NIH, and that is 
to say, well, we can leave the people where they are in the 
current Department. We just take their money away and then give 
it back to them. But this time, it comes back with 
micromanagement.
    Now, we have done that experiment. Take a look at DOE. Ask 
any set of witnesses whether they think the DOE system of 
managing its national laboratories is effective and they will 
tell you that there is a long history of micromanagement. It is 
not intended. It is just that the structure is such that the 
money that flows to those DOE labs comes from very large 
numbers of different line items in various appropriations 
managed by different offices, each of whom has control over a 
little piece of the budgets of one of those laboratories.
    The third alternative, which we believe is the right one, 
is to ensure that there is a strong capability in the Executive 
Office of the President to create strategy for Homeland 
Security, at least for the S&T piece of it--I believe it should 
be for all of it--to create that strategy and to get 
commitments from the whole government to support that strategy, 
so that the agencies that are qualified to contribute will know 
what the strategy is, will put proposed programs in their 
proposals to the President and the Office of Management and 
Budget. Those will be vetted at the Executive Office of the 
President on the advice of the Department, and let me say, with 
the support of OSTP, and then there will be a line item placed 
in that agency's budget to do the work, and they know what they 
are supposed to do, they are given the money to do it, and they 
run the program.
    They, of course, can be asked to be responsible to the 
Department to provide reports, briefings, whatever the 
Department needs to assess whether the work is well done or 
not. But this is a different method than taking the money away 
from the Department and then giving it back to them. Just give 
the money to the Department and make them commit what they are 
going to do.
    Now, if I may, I would like to take off my academy hat and 
speak for this Lewis Branscomb who has spent 20 years running 
government R&D, 15 running IBM's R&D, and 15 years studying it 
at Harvard. Because I was finally able to get your bill just a 
couple days ago and I studied it very carefully, I have an 
appendix to my testimony that separately is my personal 
evaluation, not the academy's, the R&D dimensions of the 
proposed bills, each bill analyzed separately.
    What I would like to do, if I have a few minutes left, is 
to take you through a comparison of the two bills, through at 
least eight of ten very important attributes the bills need to 
satisfy.
    Chairman Lieberman. I am going to ask if you would hold 
that and then I will come back during the questioning period. I 
appreciate very much not only your testimony today, but the 
efforts you made in preparing the written testimony, which we 
will go over. So for now, I thank you, Dr. Branscomb. It has 
been very helpful testimony.
    Our next witness is Dr. Margaret Hamburg, former 
Commissioner of Health of New York, Assistant Secretary of HHS, 
and now the Vice President for Biological Programs at the 
Nuclear Threat Initiative. Thank you.

 TESTIMONY OF MARGARET A. HAMBURG,\1\ M.D., VICE PRESIDENT OF 
         BIOLOGICAL PROGRAMS, NUCLEAR THREAT INITIATIVE

    Dr. Hamburg. Thank you. I very much appreciate the 
invitation to discuss the policy implications for public health 
in bioterrorism threats that would stem from the creation of a 
new Department of Homeland Security, and my remarks will be 
much more focused on that particular question, although I am 
delighted to talk more broadly in the question and answer 
period.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Hamburg appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    The formation of such a Department is clearly needed, yet 
we should move forward carefully, as you are doing, to define 
what are the goals and how best to achieve them. The 
opportunities for greater efficiency, effectiveness, and 
accountability are fairly evident in realms of overlapping 
activities, such as border security, Customs procedures, and 
aspects of emergency response.
    How best to organizationally address the activities related 
to bioterrorism prevention, preparedness, and response is a 
more complicated question. Bioterrorism is fundamentally 
different from other security threats we face. Meaningful 
progress against the biological threat depends on understanding 
it in the context of infectious and/or epidemic disease. It 
requires different investments and different partners.
    Unless we recognize this, our Nation's preparedness 
programs will continue to be inadequately designed. The wrong 
first responders will be trained and equipped. We will fail to 
build the critical infrastructure we need for detection and 
response. The wrong research agendas will be developed. And we 
will never effectively deal with the long-term consequence 
management needs that such an event would entail. We may also 
miss critical opportunities to prevent an attack from occurring 
in the first place.
    There are certain real advantages to placing these programs 
within a new Federal Department of Homeland Security. The 
biological threat--and the public health programs required to 
address it--is of profound importance to our national security. 
By residing within this new Department, it may command more 
priority attention and support. It may help ensure that experts 
in biodefense and public health preparedness are full partners 
at the national security table.
    However, including biodefense and public health programs in 
the new Department has some serious drawbacks. A fundamental 
concern is they will lose program focus and organizational 
coherence by combining biodefense activities--which are largely 
within infectious disease, medicine, and public health--into a 
department devoted mainly to a very different set of security 
functions and concerns. These biodefense activities could well 
be swallowed up in this huge new agency, which will likely lack 
the expertise and technical leadership necessary to plan and 
direct vital bioterrorism preparedness functions.
    In addition, most of the public health activities required 
for bioterrorism are just as important for the day-to-day 
functions of public health and medical care. In the months 
since September 11, the Bush administration, through programs 
developed and administered by the HHS Office of Public Health 
Preparedness and the Centers for Disease Control and 
Prevention, has made significant progress building the programs 
necessary to strengthen public health infrastructure for 
bioterrorism preparedness within this broader context.
    If these programs are carved out and moved into this new 
Department, it will disconnect certain functions, such as 
bioterrorism surveillance, laboratory networks, and response 
from other essential components of infectious disease response 
and control. It will thin out already limited expertise and 
enormously complicate the ability of our public health partners 
at the State and local level to work effectively. Rather than 
consolidating functions in a single agency, transferring the 
bioterrorism preparedness activities into this new Department 
may actually require the creation of parallel and duplicative 
capabilities.
    I would certainly recommend that HHS and CDC should 
continue to have direct responsibility for programs related to 
the public health infrastructure for infectious disease 
recognition, investigation, and response, including 
bioterrorism. However, we will need to integrate these 
activities into the framework for homeland security. To achieve 
this, a public health professional with appropriate expertise 
could be placed within the Department of Homeland Security with 
dual reporting to HHS. This person could work closely with CDC 
to achieve mutually agreed upon national security and public 
health priorities for bioterrorism preparedness and response.
    Similarly, future preparedness requires a comprehensive 
biodefense research agenda that links national security needs 
and research and development priorities and that shows proper 
balance and integration of relevant research activities across 
various departments and includes threats to humans, animals, 
and crops. Coordination of such an agenda could well be in the 
domain of a new Department of Homeland Security, engaging the 
expert input of Departments like HHS, DOD, Commerce, DOE, and 
USDA.
    However, the role of the Department of Homeland Security 
should be that of coordinator-facilitator only. The actual 
design, implementation, and oversight of the research agenda 
and its component programs must remain at the level of the 
mission agencies where the scientific and technical expertise 
resides. HHS, in the unique role played by NIH, represents the 
primary department with responsibility for biomedical research 
and should remain central in setting priorities and directing 
and administering resources.
    To address concerns raised across many domains, a new 
Department of Homeland Security will require significant 
expertise in public health, infectious disease, and biodefense. 
This must be seen as an important priority. The appointment of 
an Under Secretary for Biological Programs should be considered 
to oversee and integrate the various activities going on within 
the Department that relate to the biological threat. In 
addition, that individual might be charged with liaison 
responsibility to the various other departments with 
significant responsibilities and programs in the biological 
arena.
    In the final analysis, strengthening our homeland security 
programs will depend on achieving dramatically improved 
coordination and accountability across many agencies, as well 
as the private sector. This could be achieved in many ways. 
Furthermore, no matter where the lines are drawn to define the 
components of a new Homeland Security Department, critical 
activities will fall outside. So whatever the new Department 
may look like, we must establish additional mechanisms to 
assure adequate oversight and coordination.
    There are many more outstanding concerns that we could 
discuss and that will need to be clarified before such 
important legislation is passed, but in the interest of time, I 
have limited my comments.
    I deeply respect your efforts, Mr. Chairman and the Members 
of this Committee, in taking on this vital but difficult 
challenge. I welcome the opportunity to work with you on this 
and would be happy to answer any questions you may have.
    Chairman Lieberman. Thanks, Dr. Hamburg, for an excellent 
opening statement.
    Next, we are going to hear from Janet Heinrich, who is the 
Director of Health Care and Public Health Issues with the U.S. 
General Accounting Office. Thanks for being here.

  TESTIMONY OF JANET HEINRICH, DR.PH, RN,\1\ DIRECTOR, HEALTH 
   CARE--PUBLIC HEALTH ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Ms. Heinrich. Mr. Chairman and Members of the Committee, I 
appreciate the opportunity to be here to discuss the 
establishment of a Department of Homeland Security. My remarks 
will focus on the aspects of the President's proposal concerned 
with public health preparedness found in Title V of the 
proposed legislation and the transfer of research and 
development programs found in Title III.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Heinrich appears in the Appendix 
on page 75.
---------------------------------------------------------------------------
    The consolidation of Federal assets and resources for 
medical response to an emergency, as outlined in the proposed 
legislation, has the potential to improve efficiency and 
accountability for those activities at the Federal, State, and 
local levels. The programs with missions closely linked to 
homeland security that would be consolidated include FEMA, 
certain units of DOJ, and the HHS Office of the Assistant 
Secretary for Public Health Emergency Preparedness. The 
Strategic National Stockpile currently operated by CDC would be 
transferred to the new Department, as would the Select Agent 
Registration Enforcement Program.
    Issues of coordination will remain, however. The proposed 
transfer of the MMRS does not address the need for enhanced 
regional communication and coordination and the NDMS functions 
now as a partnership between or among HHS, the Department of 
Defense, the Department of Veterans Affairs, FEMA, State and 
local governments, and the private sector. Thus, coordination 
across departments will be required.
    The President's proposal to shift the authority, funding, 
and priority setting for all programs assisting State and local 
agencies in public health emergencies from HHS to the new 
Department raises concern because of the dual-purpose nature of 
these programs. These include the CDC Bioterrorism Preparedness 
and Response Program and the HRSA Hospital Preparedness 
Program. Functions funded through these programs are central to 
investigations of naturally occurring infectious disease 
outbreaks and to regular public health communications, as well 
as to identify and respond to bioterrorist events.
    Just as in the West Nile virus outbreak in New York City, 
which initially was feared to be a bioterrorist event, when an 
unusual case of disease occurs, public health officials must 
investigate to determine the cause. Although the origin of the 
disease may not be clear at the outset, the same public health 
resources are needed to investigate.
    While under the proposal the Secretary of Homeland Security 
would be given control over these programs, their 
implementation would be carried out by another department. The 
proposal also authorizes the President to direct that these 
programs no longer be carried out in this manner without 
addressing the circumstances under which such authority would 
be exercised.
    We are concerned that the separation of control over 
programs from their operations could lead to difficulty in 
balancing priorities. Although HHS priorities are important for 
homeland security, they are just as important to the day-to-day 
needs of public health agencies and hospitals, such as 
reporting meningitis outbreaks or providing alerts to the 
medical community about influenza. The current proposal does 
not clearly provide a structure that ensures that both the 
goals of homeland security and public health will be met.
    The new Department would also be given overall 
responsibility for research and development for Homeland 
Security. In addition to coordination, the role of the 
Department should include forging collaborative relationships 
with programs at all levels of government in developing a 
strategic plan for research. The new Department will need to 
develop mechanisms to coordinate information on research being 
performed across the government as well as end user needs. It 
should be noted that the legislation tasks the new Department 
with coordinating civilian events only, leaving out DOD and the 
intelligence agencies and also would allow it to conduct 
relevant research.
    The proposal would transfer parts of DOE's nonproliferation 
and verification research program to the new Department. For 
example, it is not clear whether only the programmatic 
management, the dollars would move, or that the scientists 
conducting the research would move. Again, because of the 
multi-purpose nature of these research programs, it may be more 
prudent to contract with the laboratories to conduct the 
research rather than to move the scientists.
    The proposal would transfer the responsibility for all 
civilian health-related biological defense research programs, 
but the programs would continue to be carried out through NIH. 
These dual-use programs include efforts to understand basic 
biological mechanisms of infection and to develop and test 
rapid diagnostic tools, vaccines, and drugs. For example, 
research on a drug to treat patients with HIV is now being 
investigated as a prototype for developing drugs against 
smallpox.
    The proposal to transfer responsibility for research raises 
many of the same concerns we have with the public health 
preparedness programs. Although there is a clear need for the 
new Department to have responsibility for setting policy, 
developing a strategic plan, and providing leadership for 
overall coordination for research, we are concerned that 
control and priority setting responsibilities will not be 
vested in the entity best positioned to understand the 
potential of basic research efforts or the relevance of 
research being carried out in other non-homeland defense 
programs.
    In summary, many aspects of the proposed consolidation of 
response activities and research are in line with our previous 
recommendations to consolidate programs, coordinate functions, 
and provide a statutory basis for leadership of Homeland 
Security. We have, though, several clear concerns.
    Mr. Chairman, this completes my prepared statement and I 
would be happy to answer any questions.
    Chairman Lieberman. Thanks, Ms. Heinrich. That was very 
helpful.
    Next, Dr. William Madia, Director of the Oak Ridge National 
Laboratory and also Executive Vice President of Battelle 
Memorial Institute, which puts you on both coasts.
    Dr. Madia. Both sides, exactly.
    Chairman Lieberman. Thank you.

 TESTIMONY OF WILLIAM J. MADIA, PH.D.,\1\ DIRECTOR, OAK RIDGE 
  NATIONAL LABORATORY AND EXECUTIVE VICE PRESIDENT, BATTELLE 
                       MEMORIAL INSTITUTE

    Dr. Madia. Thank you, Mr. Chairman and Members of the 
Committee. It is a pleasure to appear before you this morning 
and provide my testimony. I will focus my remarks on how we can 
best apply the U.S. research enterprise in support of the 
proposed Department of Homeland Security, particularly as it 
applies to weapons of mass destruction threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Madia appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    The homeland security challenges we face are enduring, 
daunting in scope, and technically complex. Therefore, we 
require a science and technology response that is equally 
comprehensive.
    With its emphasis on the critical role of science and 
technology, I would like to express my strong support for the 
President's proposal for the creation of a Department of 
Homeland Security. I will make four points regarding science 
and technology in this new Department, which I believe are 
fully consistent with the President's proposal.
    First, I support the new Department being formally assigned 
the role of leading the Nation's technology development and 
deployment efforts as they apply to homeland security. The 
proposal properly establishes that cross-cutting responsibility 
for science and technology with the new Department's Under 
Secretary for Chemical, Biological, Radiation, and Nuclear 
Countermeasures.
    Next, since we will never be able to protect ourselves 
against every threat, nor will there be unlimited resources, we 
must set our science and technology priorities based upon the 
best understanding of our vulnerabilities, the possibilities 
offered by science and technology, and the cost effectiveness 
of proposed solutions. Thus, it is essential for the new 
Department to establish a dedicated risk analysis and 
technology evaluation capability, obviously informed by the 
threat identification and analysis functions of our 
intelligence community.
    Third, I support the establishment of a problem-directed 
technology development program in the new Department. This 
program should be responsive to the specific challenges and 
needs of the customers of the new Department, both those inside 
of DHS as well as other State and local agencies, those who 
actually will end up the technologies developed here. These 
programs should be designed to ``close the gap'' between new 
ideas for fighting terrorism and deployable solutions. The mode 
in which DARPA operates comes to mind as a good management 
model, as has been suggested by Dr. Marburger and also previous 
panelists.
    In addition, the elements of management flexibility and 
control outlined in the President's proposal will be 
particularly important in managing the R&D function of the new 
Department.
    Finally, the reason our Nation was able to deploy relevant 
and impactful technologies almost immediately in response to 
the terrorist attacks is because of past investments in the 
basic research which underpins these technologies. To ensure 
our long-term national capacity to create new and better 
solutions, we should provide continuing strong support for 
basic research programs in such areas as information 
technology, modeling and simulation, biotechnology, 
nanosciences, and advanced center technologies.
    Like others, my comments do not imply the creation of 
extensive research capabilities in this new Department. Rather, 
DHS should draw broadly on our existing government, university, 
and industrial research base.
    In particular, the national laboratories under the 
stewardship of DOE should play a very substantial role, since 
these laboratories have a wealth of specialized capabilities 
associated with weapons of mass destruction, and in particular 
in addressing nuclear, radiological, chemical, and biological 
threats. There are numerous examples of these capabilities, but 
they are in the written testimony and I will not cover them 
here.
    The national labs, however, must, in turn, focus on and 
deliver against this new Department's science and technology 
agenda. The Homeland Security Technology Center proposed at 
Lawrence Livermore provides a needed focus for this 
coordination and the intended Centers of Excellence at the 
major DOE national laboratories provides for an effective way 
to obtain the necessary commitment of resources.
    In closing, I would like to reflect that only twice before 
in our history have we seen the Nation's scientific community 
be so galvanized around a critical national issue as they are 
today on meeting the needs of homeland security challenges. The 
first occasion, which was the development of the atomic bomb 
through the Manhattan Project, ended up creating the Atomic 
Energy Commission, which later became the Department of Energy.
    The second occasion was a response to Sputnik and President 
Kennedy's challenge to place a man on the moon within a decade. 
That led to the creation of NASA.
    With the formation of the Department of Homeland Security 
to give leadership and a focal point to our science and 
technology community, I am confident that today's scientists 
and engineers will meet our homeland security challenges in a 
way that is every bit as successful as they have been in 
earlier times.
    Thank you, and, of course, I would be glad to answer any 
questions you have.
    Chairman Lieberman. Thanks very much, Dr. Madia, for an 
excellent statement.
    Our final witness is Dr. J. Leighton Read, who is a General 
Partner of Alloy Ventures. In a general sense, Dr. Read is here 
to represent the private sector and the considerable 
contribution that the private sector can make to marshaling our 
technological and scientific strength in the war against 
terrorism, so I thank you very much for being here.

TESTIMONY OF J. LEIGHTON READ, M.D.,\1\ GENERAL PARTNER, ALLOY 
                            VENTURES

    Dr. Read. Thank you, Senator, and it is also not only a 
privilege to address the Members, but also to hear my fellow 
witnesses' comments, informed by their experience and 
thoughtful work.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Read appears in the Appendix on 
page 94.
---------------------------------------------------------------------------
    I am a physician by training. My academic research dealt 
with cost effectiveness and balancing of risk and benefit and 
costs in evaluation of new medical technologies and important 
medical decisions, but for the last 14 years, I have been 
starting biotechnology companies, helping them get funded, and 
now financing them as a venture capitalist.
    I do not know that I can carry the full weight of 
representing the private sector in this country, but I would be 
delighted to share some thoughts with you about how people 
representing these vast pools of capital are standing by to 
invest in technology. There are about $75 billion of capital 
committed to venture capital partnerships that are not yet 
committed to new companies. So there are vast pools of capital 
out there.
    Chairman Lieberman. Just repeat that again so we all 
appreciate it.
    Dr. Read. There are $75 billion committed by America's 
pension funds and endowments and individuals to venture capital 
partnerships that are ready to be invested. This is current----
    Chairman Lieberman. It is sitting, waiting for appropriate 
opportunities, right?
    Dr. Read. That is correct. By the way, talking about a few 
numbers, I saw a report the other day that venture capital-
based companies now produce about 11 percent of the GDP, over 
$1 trillion, and if you add up all the direct and indirect 
jobs, you can get to something like 27 million jobs. So this is 
an important part of the economy.
    These vast flows of capital include also the public 
markets, and in general, these investments are focused not on 
companies that earn their profits by doing contract R&D or by 
providing service businesses. The real attraction for this kind 
of capital is to invest in relatively high-risk, high-
opportunity companies that can generate explosive growth into 
huge markets with really clear unmet need. That really brings 
us to the gap or the problem that the creation of a Homeland 
Security Department can address, because right now, it is not 
clear that there are those markets and that there are those 
opportunities in developing countermeasures.
    There is a lot of marvelous and important groundwork being 
laid with R&D that is being sponsored inside the government and 
outside the government that will help provide a basis for that, 
but we usually--almost always--need the private sector to 
finish the job for countermeasures such as vaccines and drugs, 
biologicals, diagnostics--and it has to be clear that there is 
a market.
    So I would like to emphasize the importance of including a 
focus on the results, the outcome, rather than just the 
process. The creation of a strong, centralized prioritization 
focus in the Department is absolutely essential to get this 
done. It is also very important that the incentives be clear. I 
do not think markets fail with respect to these kinds of 
products. Markets signal us about what the incentives really 
are, and some of your proposals, Mr. Chairman, are very welcome 
and deserve very serious thought.
    In my opinion, in many cases, the most useful incentives 
are going to be quite particular to both the nature of the 
threat, whether it is biological or otherwise, and maybe even 
within the realm of biological, there may be important 
particularities in terms of how to design the incentives, 
whether a purchase fund or other types of incentives related to 
intellectual property or tax are important.
    It would be a terrific opportunity to actually ask that the 
Department engage in dialogue with appropriate experts and that 
the Department have the ability to help influence and design 
incentives that will then require legislation to move forward, 
so I hope that the Committee will consider making that part of 
the authorization.
    From my own experience, trying to figure out who is the go-
to person to help make a decision or indicate whether there is 
going to be government interest, a customer, in other words, it 
is very hard. You have read report after report from Hart-
Rudman, the DSB reports, and others that we have got this 
massive problem of duplication and silos and lack of 
coordination. Clearly, that is one of the opportunities that 
this Department can address.
    We are going to have to make some tough choices. We are 
going to have to pull some things out of departments where 
people have been comfortable and there is a lot of expertise in 
order to get the coordination that we need, and I would 
advocate that we do make those tough choices, and then we also 
have to deal with the matter of coordination. I am concerned 
about having parallel functions that provide too many parallel 
groups. It will just continue to compound the problem of more 
silos.
    So it should be clear to the private sector players that we 
want to engage, who to go to, who has got the decisionmaking 
authority, and what the ultimate rewards will be for those that 
are successful.
    Now, one more point I would like to make. Some people have 
pointed out, or argued, worried, that this is too hard. There 
are just too many threats. Well, actually, if we think 
carefully about where the real damage could come from, 
infectious agents and specific biological agents that are 
readily available to our opponents now represent an opportunity 
to go ahead and commit to significant programs, as you said 
before in your opening remarks.
    We generally have been successful when we try and build 
vaccines, for example, for particular targets. HIV is a 
counter-example. It remains very stubborn and elusive, but in 
general, when we have really focused our basic science at NIH, 
our applied research in industry, we have been successful in 
creating vaccines for important targets. So there is a lot of 
room for hope there. There is dual-use. There are going to be 
cases where the government is the only customer, but it is not 
just this government.
    There was a little earthquake in Taiwan that produced a 10-
day delay in the shipment of chips, disk drives, flat-panel 
displays to my home in Silicon Valley and a few dozen companies 
in Silicon Valley missed their quotas, missed their financials 
for the quarter. This was the September 1999 event in Taiwan. 
That was just a 10-day delay.
    Imagine five cases of confirmed smallpox on the island of 
Taiwan, how many months it will be before a shipping container 
in the Port of Oakland or a 747 full of those parts lands in 
the San Francisco airport? We and our trading partners are 
actually in an interconnected web. There has not been enough 
discussion about how we can get our trading partners and our 
allies engaged to pay their share of this so that we can create 
large enough markets to get the countermeasures that we need.
    I look forward to a chance to discuss this further in our 
hearing.
    Chairman Lieberman. Very interesting testimony.
    Let me just go back to--as I begin my questioning--the $75 
billion, to be clear. This, quite literally, is money that is 
waiting for the right opportunities, correct?
    Dr. Read. That is correct, Senator.
    Chairman Lieberman. I must say, and I do not know whether 
my colleagues on the Committee have found it--that since the 
tragedy of September 11, you have a sense that there are people 
in the private sector who have been active in relevant areas 
and are rushing to see if there is some way they can do 
business with the Federal Government, and that is part of the 
genius of our system. Obviously, we have to be discriminating 
customers, but it is a tremendous source of strength for us.
    Obviously, the overall question we are asking here today is 
how best to marshal our public and private scientific and 
technological resources to aid us in the war against terrorism. 
For us, this becomes, in some senses, a much less imaginative 
but daunting challenge, nonetheless, which is where do we put 
the boxes and how do we organize them with lines of 
accountability and responsibility to make this work most 
effectively and efficiently.
    So the first question I want to ask is that in the 
President's proposal, interestingly, they have combined in this 
fourth section not only response to weapons of mass destruction 
but, if you will, science and technological responses. For now, 
I am wondering, why do that? In other words, why not take the 
actual response to the weapons of mass destruction functions 
and put it into the FEMA center division that both we and the 
President create and then do something separate for the science 
and technology.
    I welcome contrary points of view, obviously. I wonder what 
the panel's reaction, any of you, is to that. Dr. Branscomb, or 
any of you?
    Dr. Branscomb. I believe that the Committee's bill, S. 
2452, is in many respects a cleaner--from a managerial point of 
view, a cleaner structure than the President's. It clearly 
identifies the whole collection of border issues, that is, 
trying to control what comes in in the way of a threat, that 
is, trying to prevent the threat from being realized. That is 
one set of functions. And the other set of functions are those 
that involve a response to an actual realization of a threat.
    Chairman Lieberman. Right.
    Dr. Branscomb. Those are two different things. I think you 
have it sorted out just right.
    I would comment that I found it very surprising that your 
Borders Directorate does not have the Transportation Security 
Administration from the Department of Transportation in it, but 
that is really not an R&D organization. In some ways, I wish it 
were. It has very little such capacity, but it is very much 
concerned with the fact that we do not have a single border. We 
have a very porous border. We live in a coupled world in global 
economies and the border ends up wherever that container ends 
up. So I think that unit needs to be in the program.
    I am not happy with the notion that a number of specific 
research capabilities outside, such as the NIS Computer 
Security Division, would be picked up and moved into the 
Division. It can be more effective where it is.
    Chairman Lieberman. And which division is it moved into?
    Dr. Branscomb. In the President's bill, I believe it is 
moved into their first one, the Title II one.
    Chairman Lieberman. Correct. Incidentally, two things. One 
is that the President's bill did add the new Transportation 
Security Agency to the border, the so-called ``prevent'' 
division, which we did not do. We did not do it because we 
heard some disagreement, but also because the new 
Transportation Security Agency was just being formed. Governor 
Ridge spoke to me before the President and the administration 
put out their bill and I told him then and I say it again, that 
I think they did the right thing. TSA should be in the new 
department.
    Second, I hope members of the panel have gotten the sense, 
that even though there are differences between the President's 
bill and the Committee bill, we are really working in a 
cooperative way now--without a lot of rigidity or pride of 
authorship--to figure out from the various proposals which is 
the best.
    Any other responses to that? Yes, Dr. Madia.
    Dr. Madia. Mr. Chairman, to me, there are two very 
important issues on the question you asked. The first is 
addressed in the President's bill. It clearly identifies the 
cross-cutting nature of science and technology in that fourth 
directorate, and so it is essential that that role be clear. We 
are talking about the role. And so this is not an organization 
dedicated just to weapons of mass destruction R&D, but it has 
got a broad cross-cutting R&D function.
    The second, and probably the more important factor, is who 
you select for that position. Boxology is kind of nice, but the 
actual person in that role, as mentioned by a previous 
panelist, I think becomes the most important factor. Having an 
R&D person with the kind of culture and understanding of how to 
move science to technology to application will ultimately be 
more important than the structure, in my opinion.
    Chairman Lieberman. That is a good point. Yes, sir, Dr. 
Read.
    Dr. Read. Just a brief addition. It seems to me that there 
are going to be opportunities to organize around the threat, as 
well, rather than the boxology that reflects our current 
governmental structure, and I would just urge, for example, 
that there be a decisionmaker at a high enough level related to 
the bio issues and a supporting panel at a high enough level 
that that is not lost. In some ways, there may be good models 
from the military that could be borrowed there in terms of----
    Chairman Lieberman. Say a little more about that, in terms 
of organizing for the threat.
    Dr. Read. What I have in mind is that, and particularly 
with respect to engaging the private sector, I think that the 
nature of the problems are quite diverse. In fact, going back 
to an early discussion, it may be time to retire the term 
``weapons of mass destruction'' because it is so confusing. 
There are very important issues related to bio that may be 
unique to bio. And while the management of science and 
management of research and some of that infrastructure is 
common, I think having people who are really the right experts 
for chem and nuclear sitting in on those discussions is not an 
efficient use of resources and that we ought to be able to 
concentrate the prioritization within bio. The interaction with 
the private sector and this huge task of coordinating all the 
places in the government should be concentrated at a high 
enough level that it is really meaningful by the specific 
threat.
    Chairman Lieberman. Good point. Again, I think from my 
point, I am going to try to stop using the term ``weapons of 
mass destruction.'' It takes a little more time to say 
chemical, biological, radiological, and nuclear, but as we 
learned on September 11, a plane can be a weapon of mass 
destruction.
    Dr. Hamburg.
    Dr. Hamburg. I just wanted to add that while I recognize 
there are enormous pressures to move swiftly to create this new 
Department, there is a strong argument to be made, as my 
colleague, Dr. Branscomb did, that we really need a strategic 
framework as we shape this new Department, really defining the 
goals and objectives in the different arenas and the roles and 
responsibilities of the various component departments and 
agencies and also recognizing that, in addressing this problem, 
how the private sector and voluntary organizations interact is 
also key to a comprehensive and ultimately effective approach.
    Perhaps it is a timid proposal, but perhaps one can do this 
effort in a somewhat incremental way, really focusing first on 
consolidating those programs, policies, and activities that 
clearly support a set of well-defined homeland security 
missions and concerns, the border security, Customs activities, 
some of the law enforcement and emergency response activities.
    Recognize that some of the science and technology and 
research enterprises that we have been discussing really need 
to be closely embedded in the technical and scientific 
expertise that resides within a broader range of departments 
and that we need to be careful about disrupting many of those 
activities, including the public health activities that I 
discussed in my oral testimony. Coordination and accountability 
are key to making integrated, coherent, and comprehensive 
strategy in this area.
    Actually moving the component pieces, taking away the 
money, giving it back to micromanage within those departments 
and other strategies that have been proposed may not ultimately 
be the most effective approach, and so in those arenas, we may 
want to first establish a much more structured coordination and 
accountability mechanism and then make decisions about how to 
move some of the actual pieces into an organizational 
structure.
    Chairman Lieberman. That is helpful. My time is up, but Dr. 
Branscomb, do you want to say a quick word?
    Dr. Branscomb. I just want to say there are three serious 
problems with the President's proposal for how to organize the 
R&D in the Department. The first is that I believe it is 
totally unmanageable to give one of the four operating 
executives in the Department not only the responsibility for 
this enormously important problem of nuclear weapons and 
biological warfare and chemical warfare, they are also assigned 
by law and R&D function in support of those problems, and then 
they are also assigned an R&D function in support of the whole 
Department.
    They are never going to be able to make those trade-offs 
between their R&D obligations to their own operational mission. 
Nobody will ever be satisfied they have done enough against 
those threats, and they simply will not do it for the rest of 
the Department.
    The second problem is that the people you would most like 
to have doing that work on the nuclear problem and on the 
biological problem are the scientists at Livermore 
Laboratories. Those are wonderfully brainy people, very smart, 
long record of worrying about security. I do not think there is 
a one out there who has a clue what a fireman needs and can 
use. What if you give it to the fireman and he tries it and it 
does not work? He throws it down and says, ``I have been 
fighting fires all my life. I am just going to go do it.'' That 
is the spirit of our first responders, and the R&D has to be 
very sensitive to the nature of those people's real 
requirements.
    The third problem is that even if that Title III division 
did not have this conflict of mission problem, you still have 
the problem that you have got four operating executives sitting 
at the table, one of whom is also the corporate R&D manager. I 
do not think that works either. I think there has to be a 
corporate R&D manager, which, indeed, your bill provides.
    Chairman Lieberman. Thanks. That is very helpful. Senator 
Cleland.
    Senator Cleland. Yes, sir. Thank you very much, Mr. 
Chairman. What a fascinating series of hearings we have had. I 
hope the American people are tuning in and listening. As Dr. 
Madia has indicated, this is one of those key turning points, 
moments, or pivotal times when the country has been shocked 
and--or from Aldous--if you like my quotes, here is one more. 
Aldous Huxley, the great British author, said, ``Experience is 
not what happens to a man, it is what a man does with what 
happens to him.''
    So here we are. We know what happened to us, and part of 
this Governmental Affairs challenge here on this Committee is 
to figure out now what we do about it, and there are lots of 
ideas.
    But I will say, Dr. Branscomb, that I have often thought, 
coming from a very small town where I know the firemen and the 
policemen and the EMS people by name, and their dog and their 
cat---- [Laughter.]
    Senator Cleland [continuing]. That unless homeland security 
works at the hometown level, it is not going to work. So I 
think that is part of our challenge.
    I do favor the Homeland Security Department, but I think it 
has ultimately hometown mission. That is the bottom line for it 
to work there.
    I will say, Dr. Read, that if you know where you can lay 
your hands on $75 billion, you can buy ImClone, you can buy 
WorldCom---- [Laughter.]
    Senator Cleland [continuing]. You can buy Tyco, you can buy 
Enron cheap---- [Laughter.]
    Senator Cleland [continuing]. And save the American 
economy. I just thought I would throw that out there for you. 
[Laughter.]
    Dr. Hamburg, I would like for you to think about this. The 
GAO has pointed out about the President's proposal that the 
proposal does not sufficiently clarify the lines of authority 
of different parties in the event of an emergency, such as 
between the FBI, and public health officials investigating a 
suspected bioterrorism incident. This is exactly what we went 
through with the anthrax attack.
    Again, the CDC, the bug FBI, was called into the case and 
they identified the bug quickly. Then the FBI itself was called 
in, shut down the crime scene, and in many ways, the CDC and 
the FBI then competed for their own piece of the pie, I guess, 
and there were two competing interests. The FBI is basically 
the law enforcement agency. As we saw in testimony yesterday, 
it is basically an 11,000-person law enforcement agency which 
is involved in secrecy, which is involved in non-dissemination 
of information, and probably building a court case over a long 
period of time.
    An agency like the CDC is a public health agency that is 
interested in responding quickly to emergencies and getting 
information out, disseminating information quickly in order to 
prevent either further attacks or to deal with an attack 
underway. So two competing interests here.
    Again, the President's proposal has the CDC, for 
bioterrorism purposes, responding policy-wise to the Secretary 
of Homeland Security. But for operational purposes, I guess 
rations and quarters as we used to call it in the military, to 
the Secretary of HHS. I wonder if you feel that is a problem.
    One of the ways I would solve it is create a center at the 
CDC, not move these wonderful people out who have wonderful 
synergy with the other public health officials in the other 
centers, but create a center at the CDC. Because 34 percent of 
the CDC's work now has to do with bioterrorism, except it is, 
OK, you do this for a few hours and you do this over here. 
There is no real dedicated center. You have got a lot of 
experts, but there is not a dedicated center to that focused on 
it 24 hours a day, 7 days a week, that then is, in effect, the 
Center of Excellence for what you do to prepare for a 
biological attack and what you do to respond to it.
    If you had the center, then I think that dual master 
responsibility would work for policy, the Homeland Security. 
For administration, operational purposes, coordination with the 
other elements of the CDC, you would answer to HHS and the 
public health interests in there. Do you see this dichotomy 
creating problems, or is this the way to go?
    Dr. Hamburg. I think that your question really gets to the 
heart of the fact, as I discussed in my testimony, that the 
biological threat is different and it is intrinsically embedded 
in the broader threat of preventing and controlling infectious 
disease threats. The CDC is really a unique national and 
international resource in terms of expertise and leadership in 
the area of infectious disease prevention and control and I do 
believe that we need to ensure that it is adequately supported 
in its activities that are broadly based and that we do not 
start to cut up the pieces, labeling some as bioterrorism 
preparedness and others as infectious disease control.
    The anthrax letters that were disseminated last fall in 
some ways were misleading for what a bioterrorism attack might 
look like. I do not think the next time we see anthrax powder 
it will be delivered in a letter with a note saying, ``This is 
anthrax. Take penicillin.'' Most likely, there will be a silent 
release and without a fortuitous discovery or an announcement 
by the perpetrator. We will not even know that an attack has 
occurred until individuals start to appear in doctors' offices, 
emergency rooms, or intensive care units, now spread out in 
time and place from the initial site of release.
    We will not know whether it is a naturally occurring 
outbreak or an intentionally caused event in many of the 
scenarios that are likely or might potentially occur. 
Therefore, we need to have a well-coordinated and certainly 
well-funded and adequately supported infectious disease 
detection investigation and response capability and CDC is 
clearly our Nation's agency to lead that effort.
    Senator Cleland. And clearly, that is the key. Who is the 
go-to person when something like this happens? Other agencies 
are involved. Initially, I had legislation that said that, yes, 
based on the Presidential directive in 1995, the FBI in terms 
of a terrorist attack was the lead agency. In 1998, the 
Congress says CDC is the lead agent in terms of a bioterrorist 
attack.
    I resolved that dilemma by legislation saying that the 
Secretary of HHS, in effect, had the power by the stroke of a 
pen to declare a national public health emergency and then, 
boom, the CDC would automatically be the lead agent. Maybe it 
should be the Secretary of HHS. Maybe it should be the 
Secretary of Homeland Security. I do not know, but the point 
is, there seems to be a threshold here in a terrorist attack 
that all of a sudden you realize, hey, this is not just a 
naturally occurring outbreak here. We have got a problem, and 
we had better get on it.
    So I think there is a threshold level there where, 
ultimately, the experts, the 8,500 scientists and experts that 
deal with this are keyed in as the lead agent. That is why I am 
such a big advocate for a center.
    Dr. Read. This is a very constructive observation that you 
have made about localizing that. I have worked with the CDC 
quite a bit in connection with a company developing a new flu 
vaccine. One of the most unique clubs in medicine are these 
doctors who wear these neckties or scarves with a picture of a 
shoe with a hole in the bottom. These are the guys and women 
who have served in the epidemiologic intelligence service who 
are the first responders to investigate. We really have two 
classes of events that actually call, I think, for very 
different skill sets and responsibilities.
    Most of the white powder episodes, we are not going to know 
whether it is a disease or a false alarm, an influenza epidemic 
coming around, and it is going to require that kind of medical 
detective work and the huge, competent laboratory back-up that 
our current CDC provides.
    At some point in the future, someone will make the 
discovery that flips a switch and says, this is not a naturally 
occurring disease. This is a terrorist attack. And there will 
be the need for criminal law enforcement investigatory work, 
but more urgently, and especially if it is a transmissible 
agent, this is a whole different category than what we faced 
with anthrax, a completely different category.
    We are going to face some really tough new issues that we 
should be preparing for now. The quarantine that must be 
enforced, and let us face it, it is a military operation, our 
National Guard, our police function, and maybe even our regular 
military are going to be involved.
    This is not part of the culture of the current CDC, so we 
need to think about different phases, sort of the screening and 
the public health role that they do so well, and maybe that is 
the right place to put that center for after the switch has 
been flipped, but it is a different set of skills and 
responsibilities and I just urge careful thought about putting 
them in that role, in a police and quarantine role. We are 
going to face some very tough challenges as a society when that 
happens and we can minimize the pain by really thinking it 
through in advance.
    Senator Cleland. I think that is the point. I think that is 
one of the reasons for the hearings that we have had is to 
establish the--is it your understanding the best thing we can 
do is establish the protocol? Work these kind of relationships 
out before the popcorn hits the fan? Because we really did not 
have those relationships spelled out. Agencies just kind of 
reacted to the anthrax thing and a bunch of agencies got their 
fingers in the pie and----
    Dr. Read. They did not do that bad of a job, by the way.
    Senator Cleland. Right, but there was a lot of 
miscommunication up front and early, and who speaks for the 
government and who does not. Dr. Madia.
    Dr. Madia. From the national lab perspective, we would 
support your idea of the Centers of Excellence because it does 
deal with the fundamental question you asked. It allows the 
laboratories, or CDC, in your case, to retain its own organic 
capability, the people, the infrastructure, the community that 
is necessary to do that. Yet, it gives DHHS a single point of 
contact to focus on that problem.
    So what the Department is planning through its 
implementation is to establish these Centers of Excellence in 
the various national laboratories to meet your model. In our 
opinion, that would be applicable to other agencies who have 
major assets to bring to bear on this.
    Senator Cleland. Thank you very much. Dr. Hamburg, my time 
is up. Go ahead.
    Dr. Hamburg. I just wanted to underscore what Dr. Read had 
said and I certainly did not want to leave the impression that 
I thought the CDC could or should be in charge of the law 
enforcement/criminal investigation activities. But the 
challenge of responding to the threat of bioterrorism very much 
requires that these different cultures and agencies with 
different missions figure out ahead of time how they are going 
to relate to each other and how they can support each other's 
distinct missions in pursuit of a common goal. However, when 
you are dealing with control of a disease epidemic, one must be 
sure that the needs for disease control are clearly understood 
and that the criminal investigation activities do not undermine 
the ability of public health agencies and medical professionals 
to actually do everything they can in a swift and timely way to 
control spread of disease, treat individuals who are affected, 
and provide preventive therapy to those who have been exposed 
and are not yet sick.
    I think that those activities can occur in a coordinated 
way, but it really depends on intensive planning and practice 
so that in a crisis, we are not thinking through these issues 
for the first time.
    Senator Cleland. Thank you very much, a key point, Mr. 
Chairman. My time is up. Thank you.
    Chairman Lieberman. Thank you, Senator Cleland. That was a 
very important exchange and you gave me another quote, which I 
think might be your own, ``before the popcorn hits the fan.'' 
It is a good one. [Laughter.]
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Dr. Hamburg, I particularly am interested in how we can 
bring things together to deal with the problem of bioterrorism. 
Two months before September 11, I chaired a hearing on Federal 
response capabilities to bioterrorism. There were three 
underlying concerns. First, the medical and hospital community 
needs to be more engaged in bioterrorism planning. Second, the 
partnership between medical and public health professionals 
needs to be strengthened. And third, hospitals must have the 
resources to develop surge capabilities. At that time, we 
talked about them halving their staffs, and what has happened 
to their surge response capabilities.
    My question to you is do you believe we are better off 1 
year later, and have the concerns raised at our hearing been 
met?
    Dr. Hamburg. I believe that we are better prepared today 
than we have been in the past to address the threat of 
bioterrorism, but there is still an enormous amount that we 
need to do and we need to do it swiftly.
    I think that there are several critical elements of a 
comprehensive national strategy to prevent and respond to 
bioterrorism. Certainly, the most desirable strategy is to 
prevent an event from occurring in the first place and there is 
more than we can do, although steps have been taken to secure 
dangerous materials and to make sure that dangerous pathogens 
are only used in legitimate government, industry, and academic 
laboratories. So there are things we need to do to improve 
biosecurity.
    Clearly, we need to strengthen the public health 
infrastructure, including the on-the-ground disease 
surveillance, investigation, and response capabilities, the 
laboratories needed to support those efforts, and the 
communication of information to all who need it. Those disease 
surveillance capabilities, depend very heavily upon the 
partnership between medicine and public health.
    We need to make sure that our medical system can surge in 
response to either a bioterrorism attack or any other 
catastrophic event that will involve mass casualties, and the 
current competitive environment in which the health care system 
operates has led to very significant downsizing of our health 
care capabilities and even a mild flu season can overwhelm our 
health care facilities, let alone a catastrophic terrorist 
event. So we need to really put enormous resources and 
attention to that problem and look at how we can plan to 
support surge, looking at local capabilities and how those 
could be augmented by State and Federal resources.
    We also do need to have a continuing focus on research 
because that lays the foundation for future preparedness and 
that needs to involve better basic understandings of the 
organisms that might be threats and how the human body responds 
to those threats. We need to look at threats to plants and 
animals as well. We need to develop new strategies for rapid 
detection, new drugs, vaccines, and we also need to look at 
what we sometimes call systems research. We need to better 
understand issues about environmental safety and 
decontamination. We need to know more about how you make 
buildings safe through improved ventilation systems, what kinds 
of masks are really effective, etc.
    So there are, I think, a number of critical domains. In 
many of those areas, we have established effective programs. 
Most of those programs need to be quite significantly 
strengthened and extended, and in some areas, we are still at 
ground zero in terms of developing the policies and putting in 
place the programs that are needed.
    Senator Akaka. Dr. Read, as I mentioned in my statement, 
the private sector has much to offer in fighting the war on 
terrorism. In your experience, what has been the greatest 
challenge for private researchers and small businesses to 
become involved in homeland security countermeasures efforts?
    Dr. Read. Senator, as you mentioned in your opening 
remarks, there are so many stories of people that try and 
figure out who in the government they should go talk to to get 
feedback on whether their plan or their invention or their 
ideas are useful. We desperately need to identify the 
clearinghouse. It even has to start before that. There has to 
be a decisionmaker who has to have a strategy, and out of that 
strategy there have to be priorities, and those priorities have 
to be coupled with resources so that we can create incentives 
so that then the clearinghouse can actually do the work of 
starting to produce the outputs that we need. So we have a lot 
of work to do. I think this Department is going to help. So 
finding the go-to person, that is a big part.
    The other really important part, and as a venture 
capitalist now, I have one of the most wonderful jobs in the 
world. I see entrepreneurs, inventors, college professors, and 
best of all, former entrepreneurs who have been successful who 
really know how it works and help them think about business 
plans that we might want to invest in. When we invest, we 
always get very involved in helping them build their 
businesses.
    And right now, if somebody said, look at this terrific 
vaccine for Ebola, I really think we can do it, we have really 
figured it out, we have had this key insight, just to pick an 
example, but it could be a diagnostic or a drug, or better yet, 
some system where you could respond in the midst of an 
epidemic, to respond to some brand new threat, some kind of 
research tool, and we want to build this thing.
    Then when they get to the market estimate side of their 
business plan, you know, the worst thing you can put in a 
business plan for a venture capitalist is, ``If we build it, 
they will come.'' There has to be some conviction. There has to 
be some evidence that whenever you built something like this, 
they did come.
    Well, we do not have that track record right now. There is 
no biodefense industry--just to pick the bio area--right now 
because there is no market for a biodefense industry if it were 
successful, and that can be addressed.
    So I think those are the two biggest issues, where do you 
get feedback and guidance, what the heck are their priorities, 
and then if we did hit the target, met the specification and 
built just what we need, who would be there to buy it?
    Senator Akaka. You are correct. I meet with people who come 
to ask, where do we go, who do we see? They hear that funding 
is available but are not sure how to apply for it. These are 
the important questions if we are going to ensure we have the 
technology to address the problems.
    You and I raised the idea of a clearinghouse. We need a 
Research and Development Outreach Office that encourages 
contributions from small businesses and nontraditional 
contractors. Do you believe that such a clearinghouse should be 
placed in the Department of Homeland Security?
    Dr. Read. I believe that the new Department is the place 
where the private sector should be able to ask their questions 
and get real answers about whether they are working on the 
high-priority stuff and whether there will be markets there. 
Whether we call it a clearinghouse or not, I will leave that to 
you. But I do think that the function that you have described 
the need for and I commented on has to exist in this new 
Department.
    Senator Akaka. Dr. Hamburg and Ms. Heinrich, I am concerned 
that Hawaii's first responders and State and local authorities 
nationwide do not have access to reliable and timely 
information from Federal authorities regarding terrorism.
    My question is, what kind of information do public health 
and emergency managers need, and what would be the best way to 
distribute this information in an effective and secure manner? 
Dr. Heinrich.
    Ms. Heinrich. I think that at this juncture, the CDC 
programs to provide assistance to the States, in fact, not only 
help build the infrastructure for reporting of diseases from 
the State and local areas to the Federal Government, they are 
also building communications systems so that information can go 
from the Federal Government quickly down to the State and local 
area and also to physicians and emergency rooms.
    We found out from our experiences with anthrax, for 
example, that there was not a clear message from the Federal 
Government about what the threat was and also what the possible 
treatment should be, or if somebody thought they were exposed, 
what they were to do. I think that with the programs now put in 
place from CDC, there is a real opportunity to correct those 
problems.
    I do want to add on to what Dr. Hamburg said before, 
though, about State and local preparedness, which includes 
Hawaii. We are not there yet. Certainly, we are much more 
aware, but in our work in doing an assessment of State and 
local preparedness and also in our work right now on assessing 
emergency room crowding, we are finding that the people at the 
local level are planning. They are making assessments, or they 
will be making assessments of their needs.
    They are not necessarily yet in the implementation mode and 
I just think that is really important for us to understand as 
we are trying to develop new policies and consolidate programs. 
We really do need to understand that our best information is 
going to be coming from the State and local areas and they 
still need a lot of assistance in bringing their systems up to 
where they need to be.
    Senator Akaka. Mr. Chairman, I know my time has run out, 
but I have another question or two.
    Chairman Lieberman. Go right ahead, Senator Akaka. We have 
got time.
    Senator Akaka. Let me ask a question to Dr. Madia. The 
President's proposal states, ``the technologies developed must 
not only make us safer but also make our lives better. While 
protecting against the rare event, they should also enhance the 
commonplace.''
    Dr. Madia, do you believe the Department of Homeland 
Security can reduce everyday low-consequence risks while 
focusing on catastrophic terrorism?
    Dr. Madia. That is a very important question, because as a 
Nation and as a Department, it is unfortunate, but we cannot 
protect against every threat, every day, of every consequence, 
and that is a reality we have to deal with in this country. I 
know we would like to be able to deal with that and give the 
public 100 percent assurance that low-consequence, low-profile 
events will be taken care of, but that is simply not the fact. 
That cannot happen.
    So no department can do that because it would take 
unlimited resources to do that. So functionally, the answer has 
to be, of course, we could. But operationally and practically, 
it is never going to happen that way. One of the sad problems 
we face as a Nation right now is that there are lots of 
localized low-consequence events that this Department or any 
construct of government will not be able to deal with.
    Dr. Read. Could I just comment on that?
    Senator Akaka. Please.
    Dr. Read. First of all, I would urge that the mission for 
this new Department be really clear and that we not saddle it 
with traffic safety, which is, of course, much bigger on an 
annual basis, current harm to our population than the 
actualized terrorist attacks, but we should keep the mission as 
clear as we can.
    But we should also look for the opportunities, which will 
be many, I believe, to exploit the beneficial dual use of 
investments in technology and infrastructure. When we improve 
our infrastructure, for example, I was at a meeting of some 
California public health officials soon after September 11 and 
we had public health officers exchanging cell phone numbers 
with fire officials. These people did not have them. The 
databases did not exist for that.
    So creating infrastructure to deal with a rapid response to 
detect certain kind of attacks like bio and more obvious 
attacks, we are going to create infrastructures that absolutely 
help us with the day-to-day, with emergency response and that 
very important network. That is going to be a consequence.
    The technology we build in the form of new drugs and 
vaccines and new research tools will undoubtedly have spin-off 
results in some cases. We have to be prepared to do the stuff 
that does not, as well.
    So I see a lot of benefit, but I would not want to in any 
way saddle the mission with anything other than a really clear 
focus on this newly recognized and focused problem of homeland 
security.
    Senator Akaka. Mr. Chairman, I have one final question.
    Chairman Lieberman. Please, go right ahead.
    Senator Akaka. Since we are talking about communication, 
Dr. Hamburg, as a public health official, you know the 
important role that veterinarians play in disease control. How 
do we increase communication among the Nation's veterinarians, 
medical doctors, and public health officials? Even more 
important, and let me ask this question, would the President's 
proposal do this?
    Dr. Hamburg. I think, as we have learned from many 
naturally occurring events and now thinking about the threat of 
bioterrorism, we recognize that we have been too stovepiped in 
approaches and that we really need to engage the veterinary 
community. Particularly with respect to bioterrorism, many of 
the diseases, the pathogens of greatest concern are, in fact, 
animal diseases that can affect humans. And in addition, we 
certainly know that even without the loss of one human life, 
the enormous disruption and economic devastation that could 
occur from an attack on animals or crops would be a very 
effective strategy for a determined terrorist.
    So we need to look at it. We need to broaden our thinking. 
I think you asked me before, are we better prepared? I think in 
most elements of response to bioterrorism, we have been moving 
forward. We are not anywhere near where we need to be. But one 
of the areas where we have lagged the furthest behind is 
engaging on the threats of agricultural terrorism and it needs 
to be a major priority.
    In terms of engaging the veterinary medicine community in 
particular, it starts with awareness. They need information. 
They need to be brought into existing systems and programs. 
They need to be at the table when the others are at the table 
discussing this problem and we need to develop the working 
relationships and situational awareness that will allow for a 
more comprehensive approach.
    Senator Akaka. Thank you, I just wanted to inject that the 
terrorist threat is also to our livestock.
    Ms. Heinrich, as Dr. Madia has said, we are faced with new 
risks. We cannot protect ourselves from every threat that 
comes. How do we make the general public aware of this new 
reality while maintaining their confidence?
    Ms. Heinrich. I think this is a role that public health 
officials can play in terms of educating the public and making 
sure that we have programs that help people understand what are 
the real risks, and what are the potential threats. It is not 
easy, because I think the messages are complicated. I think 
that people really do need to understand that infectious 
diseases are real, emerging infectious diseases are real and 
that they need to be aware of their pet's health as well as the 
health of themselves and their children and they need to know 
that it is no longer just the chronic diseases that we need to 
be concerned about but that we do need to be thinking about 
infectious diseases. And they need information on what to do, 
what they should do in terms of seeing their physician or 
primary care provider or the need to even go to the emergency 
room.
    In response to your question to Dr. Hamburg, I think it is 
important for us to understand that, again, in the President's 
proposal, there are some efforts there to bring in some aspects 
of the Department of Agriculture and there is discussion of 
food safety, which, of course, involves veterinary health. But 
again, you have to ask yourself the question, or we have to ask 
ourselves the question if the approach that is used is 
necessarily the best one to make sure that you have the 
coordination of effort that you want.
    I would just emphasize again that the real critical 
components are that you have that strategic plan and that you 
do have the opportunity for risk assessment, but there are a 
variety of methods for coordination of these overarching 
scientific programs.
    Senator Akaka. Mr. Chairman, you have been very generous 
with the time, and I thank you and our witnesses.
    Chairman Lieberman. Not at all.
    Senator Akaka. I will submit my other questions.
    Chairman Lieberman. Thanks, Senator Akaka. I appreciate 
your questions very much. I do have a few more questions 
myself. Let me come back to what one of you nicely called the 
boxology part of this, because that is where our work begins, 
but hopefully, our work and the work of the government does not 
end there.
    One of the key questions raised is--assuming for a moment, 
we set up a Science and Technology Office in the new 
Department--what comes under it and where the funding streams 
go. The administration's proposal kicked up a fair amount of 
dust and anxiety by seeming in the first instance to take all 
of the Lawrence Livermore Laboratory and put it into the 
Department, and then parts of NIH. As it turned out, as there 
has been clarification or adjustment, it seems that part of 
Lawrence Livermore and NIH are involved. Specifically, while 
the money for the personnel and the research goes through the 
Department of Homeland Security Science and Technology Office, 
the people stay at the laboratory and NIH.
    I still think there is a lot of anxiety, certainly, from 
members of the Senate who are close to, for example, these two 
institutions or agencies, NIH and Livermore. I wanted to ask 
you, so far as any of you want to respond, and we could begin 
with Dr. Madia, since you represent another laboratory, what 
your reaction is.
    The other alternative here clearly is not to do that and to 
create an additional funding stream, an agency--I am calling it 
SARPA--within the Homeland Security Department which would set 
the goals and agenda for science and technology with regard to 
homeland security, have additional funding, hopefully, of its 
own, but not in any sense move personnel or money from the 
existing agencies.
    So I want to invite your reaction to both of those, Dr. 
Branscomb, and then we will come right back to Dr. Madia.
    Dr. Branscomb. Thank you. As I said earlier, I think what 
is essential when we are looking at the R&D activities, that 
the technical talent for the moment, at least--and by moment, I 
mean the next year or two, until this Department is a reality 
and can function, in fact, stay where it is.
    The key to being able to do that is, in fact, to ensure 
that it can be funded where it is and that the agency undertake 
commitments, program commitments, that are responsive to a 
technical strategy for homeland security. The Department should 
be the principal origin for that strategy. But since the 
strategy clearly calls for other departments of the government 
to commit their resources or their people, their talents and 
their capabilities to the effort, that decision has to get made 
at the Executive Office of the President level.
    And I would like, if I may, to comment on the proposal in 
your bill to create a National Office for Combating Terrorism, 
because you have not only identified the necessity for that 
strategy being constructed, you have, in fact, equipped this 
statutory office with quite a number of authorities which would 
ensure, if it were accepted, it would ensure that it had a 
major role in the preparation of this governmentwide budget for 
counterterrorism which OMB then would have to work into the 
rest of the government program.
    I suspect that there will be people, OMB executives present 
and former, who will object to that much legislative effort in 
the budget process in the White House, but I think you are 
absolutely after the right goal. I would call attention to the 
fact that the President's bill makes no mention whatever of how 
a national strategy is going to be put together that would 
engage on line items, budget items, at Commerce, at NIH, at 
Energy, where they commit to do things, to give reports to the 
Department, but they have got the money, they are responsible 
for it, and they know how to spend the money fruitfully.
    I suspect the reason why the President's bill does not 
contain any mention of that is because the President did, in 
fact, when he announced his intention to promote the 
Department, noted there would still need to be an Office of 
Homeland Security at the White House.
    Chairman Lieberman. Right.
    Dr. Branscomb. And, indeed, he recognizes that. I also 
suspect that he did not put it in the bill because he does not 
want it to be a legislated office.
    Chairman Lieberman. That is also correct. That is clear.
    Dr. Branscomb. Because he can appoint it without having to 
have Congress's permission.
    Chairman Lieberman. Right, no advice and consent or a 
requirement to testify before Congress.
    Dr. Branscomb. But my concern is that because it is not 
mentioned--also, there is very little in the President's bill 
about how that global strategy would even be worked on in the 
Department. But I think that capability is crucial to not 
seizing the research capability and putting it in the--all of 
it and trying to put it in the Department.
    Chairman Lieberman. Dr. Madia.
    Dr. Madia. Mr. Chairman, when I heard you initially 
describe the SARPA concept, what immediately came to mind was 
this Homeland Security Center at Livermore, which is intended 
to be a DARPA-like organization. It would understand the needs 
of the various customers of this agency and would fund, like 
DARPA does, research at various institutions, including the 
laboratories, bring that back and provide that to the Nation. 
So I did not hear from a functional standpoint much difference 
between----
    Chairman Lieberman. That is interesting. So you would say 
that part of Livermore might do what we are thinking----
    Dr. Madia. As far as I understand what is in this proposal, 
functionally, when you were speaking this morning, that is what 
immediately came to mind.
    And from an R&D provider standpoint, that is very common. 
National laboratories work across the full range of government. 
Our customers include DOD, DOE, EPA, NASA, HHS, CDC, and so 
there are already providers which are scattered around the 
country, are ready, willing, and able, as Senator Akaka 
mentioned, to bring their talents to bear on this problem. What 
they need, as Dr. Read pointed out, was a single point of 
contact, whether it is SARPA or the proposed Center at 
Livermore, to me, that meets that functional need.
    Chairman Lieberman. Right.
    Dr. Madia. The second point of your question, it was not as 
if government was not doing anything at all on homeland 
security. Spread across government agencies, including the 
Department of Energy, were certain programs that one would look 
at from a national perspective and say, this looks like a 
counterterrorism or a bioterrorism or a counter-nuclear weapons 
activity, and those kinds of transfers, I think now are 
appropriate, because they would be core, programmatically, core 
to this new Department, in whatever incarnation it ends up.
    There are many places where there is a dual-technology 
application, where the benefit would go to CDC and DHS. In my 
opinion, those are best left in their home institutions through 
these Centers of Excellence we talked about earlier with 
Senator Cleland.
    Chairman Lieberman. Dr. Branscomb, the Committee which just 
made its report earlier this week recommended the creation of a 
Homeland Security Institute. Now, why have another institution 
different from the Science and Technology Office, however it is 
constructed, that we are talking about in the new Department of 
Homeland Security?
    Dr. Branscomb. The reason is that this supposed institute 
supports the decisionmaking, the strategic decisionmaking by 
the chief technical officer and the Secretary and Deputy 
Secretary of the Department. It plays exactly the same role--
for Homeland Security that organizations like Mitre 
Corporation, Aerospace Corporation, Project Rare Force at RAND, 
the Institute for Defense Analysis play in support of defense. 
These are all contractor-operated dedicated facilities to a 
single customer. They work only for that customer. And what 
they do is systems analysis, they analyze the problems. These 
are very complex systems problems.
    Chairman Lieberman. Right.
    Dr. Branscomb. When you look at infrastructure and its 
vulnerabilities, one section of the infrastructure, if it 
collapses brings down the next one. These are complex problems 
and setting the priorities is not a trivial problem. And 
indeed, if the industry comes in and says, ``I have got a great 
idea, is there a market for it in the government?'' You cannot 
answer that question unless you have done this kind of systems 
analytic work.
    So it does not need to be a very big organization. I would 
guess 200 to 300 people. We did not try to size it 
specifically. But I think that the authority to create it is 
absolutely essential.
    Chairman Lieberman. OK. That helps me understand it better.
    Let me go back to the dialogue with Senator Cleland, and I 
want to direct the question first to Dr. Hamburg, but Ms. 
Heinrich and others may have an opinion on it. As you know, the 
Department of Health and Human Services responded to last 
year's anthrax attacks by forming the Office of Public Health 
Preparedness, which coordinates all departmental efforts to 
combat terrorism within HHS, including managing the public 
health care required during an attack and directing research 
efforts to fight bioterrorism.
    The President's proposal would transfer this entire office 
to the new Department. I wanted to ask you all, and first Dr. 
Hamburg, based on your personal experience, what you think of 
the idea, particularly given the dual role of the office to 
manage public health readiness and advise the Secretary on 
biomedical research issues. Can it operate effectively outside 
of HHS?
    Dr. Hamburg. I think that the creation of an Office of 
Public Health Preparedness within HHS was a very important and 
appropriate step. Actually, it was a recommendation of the 
outgoing administration to create such an office, recognizing 
that there really needed to be much more focused attention and 
coordination on issues of public health preparedness, 
particularly bioterrorism. Also there was a requirement--just 
as we have been talking about with respect to the creation of a 
Department of Homeland Security--to make sure that all of the 
components of response and preparedness for HHS were, in fact, 
being addressed; that there was a strategic framework and that 
someone was accountable for making sure that there was a 
comprehensive, integrated program, and that budget priorities 
reflected that strategic framework. The best way to do that was 
with an Office of Public Health Preparedness so that the needs 
of CDC, NIH, FDA, and other important components of HHS 
responsibility and public health preparedness and response 
could all be addressed and accounted for.
    Taking that and moving it lock, stock, and barrel to a 
Department of Homeland Security, I think is problematic because 
it will disconnect many important functions that have broader 
public health preparedness roles from those that are more 
directly related to bioterrorism preparedness. That is of 
enormous concern to me, because of my bias that I have stated 
here that, really, the only way to effectively address these 
concerns is to think about the continuum of infectious disease 
threats with bioterrorism being at the extreme end.
    Certainly, there are elements of public health preparedness 
and response that are cross-cutting. The needs to support mass 
casualty care are very important to integrate closely with the 
functions of a new Department of Homeland Security, for 
example. And so I think that there are components of the HHS 
public health preparedness response that can be pulled out and 
integrated into a new Department of Homeland Security, but I 
think one has to take a very systematic look at those elements 
and the functions they support and where they can best be 
housed.
    If this new Department of Homeland Security is effectively 
defining homeland security quite broadly, and I think this is 
one of the dilemmas that you face, then those functions could 
find a comfortable and natural home. If all of FEMA is now part 
of the new Department of Homeland Security so that the 
emergency response functions of FEMA are all being managed 
within that new Department, then I think you really almost need 
to integrate some of those components from HHS into that 
framework. But I think that the elements that support the 
public health infrastructure and response at the national, 
State, and local level are much harder to label as, this is 
bioterrorism related or this is homeland security related and 
move it, because it is part of a much more broad-based and 
complex system for public health in this Nation.
    Chairman Lieberman. That is a very helpful answer.
    Let me take us beyond the boxology now into what this is 
all about, which is maybe to give us a little bit of a sense of 
what science and technology can, in the years ahead, do to help 
us in the war against terrorism.
    I am going to start with you, Dr. Madia. Actually, Senator 
Thompson left a few questions for you. Most of them have been 
asked, but this one has not and it is a good way to lead in and 
then I will go to Dr. Read or anyone else who wants to comment.
    First, if you can describe some of the work being done at 
Oak Ridge now that either is already related to homeland 
security or might be in the next couple of years.
    Dr. Madia. I thank you. Your question can be answered in 
three basic time domains, what we can do today and has been 
done today, an intermediate term, and a long term. Fortunately, 
there is a lot of activity today that is directly applicable to 
homeland security.
    In a really exciting program that connects both the 
laboratory and private sector in Oak Ridge, we are developing a 
concept called SensorNet. SensorNet literally uses the existing 
cell phone tower infrastructure, which is ubiquitous across the 
United States. Those towers in public buildings and post 
offices have an interesting capability that we do not think of 
in terms of homeland security. They have the power and the 
telemetry necessary to transmit early warnings to first 
responders on a very, very short time frame.
    We have successfully demonstrated this technology now both 
in Nashville, Chattanooga, and Knoxville, Tennessee, where you 
just hang on cell phone towers chemical, biological, nuclear 
detectors, and they are just prolific. You tend not to see 
them, but they are in high population densities.
    Chairman Lieberman. You mean they are constantly sending 
out reports over the system?
    Dr. Madia. Senator, what we found is that these towers are 
in constant contact with emergency operations centers used by 
the private sector in their normal cell phone communication, 
full diagnostics. If you would break into a cell phone tower, 
it is known immediately at the emergency operation centers by 
these cell phone companies. They are in constant contact, 
literally.
    So, therefore, if you hang a radiological sensors on a 
downtown cell phone tower and it begins to pick up a mass 
release, very quickly, you can begin to transmit, not to 
national lab folks, but to first responders, something is 
happening in downtown Washington. Here is the meteorological 
data, which is also available on those towers. Here is the 
evacuation path.
    So there is a lot of very near-term, actually quite 
pedestrian technologies that are, in fact, available today for 
deployment, and these are some of the concepts the new 
Department needs to look at as it does its triage on the 
thousands of ideas in front of it.
    Chairman Lieberman. That is a great idea. Let me make sure 
I understand. The radiological testing device or sensor would 
immediately convey a report. It is not just that something went 
off, it would send----
    Dr. Madia. It gives you a concentration----
    Chairman Lieberman [continuing]. Some data across the 
wires, or across the wireless.
    Dr. Madia. The reason I used the radiation example is 
because in those cases, the sensor technology is far more 
sophisticated there than you have in the chemical and the 
biological arenas. So you do not have such ability to give you 
such absolute accurate information on the biological side as 
you do primarily on the chemical and nuclear side.
    Chairman Lieberman. Yes.
    Dr. Hamburg. Can I just interject? I may have 
misunderstood, but I think it would be a very dangerous concept 
to pursue sensors that would immediately send information about 
a possible attack to first responders. There needs to be a 
mechanism to assess the quality of the information, whether it 
is radiological, chemical, or biological detection, and 
confirms that the threat is real and verified and then provides 
the first responders the information that they need for how to 
respond.
    Certainly, you want to get quick information that is an 
early warning that something may be out there, but I think the 
goal is not to create a system that sort of immediately beams 
information out without any quality control. We know certainly 
from the anthrax experience that our technologies just are not 
there. Maybe some day that would be great, and certainly going 
into a threat situation, you want first responders to be 
equipped with something that will tell them of a possible 
threat so they can protect themselves, but----
    Chairman Lieberman. Yes. But you are saying that----
    Dr. Madia. Dr. Hamburg's comments are actually correct.
    Chairman Lieberman. Right.
    Dr. Madia. When the demonstrations were actually done in 
Tennessee, the information first went to the Tennessee 
Emergency Operations Center, and then was qualified by the EOC 
directors of the State. Then they went through the first 
responder alert.
    Chairman Lieberman. But the important point you are stating 
is that here is a resource that you could build on to----
    Dr. Madia. The Federal Government, by the way, could never 
invest in it. You would never rebuild the national cell phone 
tower network, with 30,000 towers around the country.
    Chairman Lieberman. No, it is a good example. Anything 
else?
    Dr. Madia. That exists currently in the private sector and 
this is a good partnership between government needs and private 
sector needs, and so it is a good example for that.
    Chairman Lieberman. Good idea.
    Dr. Madia. But you are absolutely correct. You filter the 
data, do the analysis, and do not just call some fire 
department and say, go north.
    Chairman Lieberman. Do you want to give us another example?
    Dr. Madia. What you see on the energy side--one of our big 
long-term problems is the fragility of the energy grid in this 
country. It is taken down by natural events, quite often. Some 
very interesting technology----
    Chairman Lieberman. Do you consider Enron to be a natural 
event? [Laughter.]
    Dr. Madia. Unfortunately, it is a very unnatural event.
    Chairman Lieberman. That is another part of this 
Committee's work. We will leave it aside for now.
    Dr. Madia. This whole concept of self-healing energy grids 
is coming out of multiple national laboratories. If a main part 
of the grid goes down, through smart technologies that run all 
the way from the power stations to your refrigerator, they can 
literally now begin to sense a problem on the grid as it is 
occurring, can begin to shut down certain parts of the grid and 
reroute power.
    There are certain printers, I am sure you have in your 
office, that today can sense an upcoming problem on the printer 
for your computer and send a signal back to some command post 
saying your printer is about to go out. Those same kind of 
technologies are clearly deployable in our energy 
infrastructure over the next 5 to 10 years. That is a really 
long-term example of the kind of technologies that are 
applicable.
    Chairman Lieberman. Great. Dr. Madia.
    Dr. Madia. One quick comment. A lot of our discussion today 
has been about the bio threat, and I do not mean to diminish 
the bio threat at all.
    Chairman Lieberman. Sure.
    Dr. Madia. But it would be a huge mistake for us to ignore 
or not give sufficient attention to the nuclear threat. Now, 
again, we are the national laboratories and we play a 
substantial role there. But the unfortunate reality of nuclear 
threats is the materials exist, the science exists, and the 
technology exists. A weapon that could sit on this table could 
completely devastate a major U.S. city.
    And yes, we should talk about threats to agriculture, 
chemical threats, biological threats, anthrax threats, but in 
reality, this Department, I think this government, has to deal 
with the extraordinary consequences possible if a terrorist 
coming out of a country that has the assets available tries to 
deploy or use a nuclear weapon.
    So there is a lot of talk about biology this morning. It is 
very important, but it would be a huge mistake for us not to 
explicitly deal with the overwhelming consequences of a nuclear 
event.
    Chairman Lieberman. And here, you are not talking about a 
nuclear weapon delivered by a ballistic missile, or are you?
    Dr. Madia. I am not, and I am not talking about a radiation 
weapon, either, which has certain consequences. I am talking 
about a low-yield, a poorly-developed nuclear device. Take the 
technology deployed from the Manhattan Project, very pedestrian 
technology. If someone has the right kind of material, and that 
is the central issue here, but access to that material 
unfortunately is in question, especially in the former Soviet 
Union, those kind of threats, to me, are the kind of enormous 
consequence threats that the American public expects this 
government to deal with.
    Chairman Lieberman. Right. And here, we are talking about 
something being brought in in a suitcase or on a truck or----
    Dr. Madia. A poorly-constructed low-yield device is 
deployable in at least a truck.
    Chairman Lieberman. Are the labs doing work on----
    Dr. Madia. Absolutely. My point was, there was a lot of 
biology talk this morning.
    Chairman Lieberman. No, understood. Good point.
    Dr. Madia. It is still very important, but----
    Chairman Lieberman. Dr. Branscomb.
    Dr. Branscomb. I agree with his assessment that that is the 
critical risk. The level of the risk is 100 percent, if you 
believe that the terrorists can come by the appropriate, 
relatively modest amount of highly enriched uranium. We know 
that if they can, they can get it in the country. There is no 
way now we could stop it. And if they get it in the country, 
they can rent a loft in downtown Manhattan and in a relatively 
short time assemble a nuclear weapon out of that material. It 
is well known how to do that. It will not be very efficient, 
but it will kill tens of thousands of people, if not more.
    Chairman Lieberman. Yes.
    Dr. Branscomb. What can the government do about that? There 
is almost nothing R&D will do about that, but there is 
something to do. It is terribly important. We have an 
arrangement right now with the Russians in which they are 
cooperating with us on our helping finance the cost of taking 
their hundreds of tons of highly enriched uranium sitting there 
in storage. It is well protected where it is now, but they have 
agreed to reprocess some of that material down to where there 
is only 20 percent enrichment level. It cannot be made into a 
weapon at that level, and that is fairly cheap to do. Later on, 
you can improve its concentration sufficient for use in a power 
plant, but still will not be able to make a nuclear weapon.
    That is a case where the Russians are willing to work now. 
If the government does not put up the money and complete the 
program while they are playing the game, we will regret it for 
the rest of our lives.
    Chairman Lieberman. There is a lot of support here for what 
started out as the Nunn-Lugar program of cooperative threat 
reduction. There was some uneasiness about this 
administration's initial response to it. It looked like it was 
going to cut back support. But I think we are turning that 
around, and that is critically important.
    I presume one of the other things science and technology 
might do is to increase our capacity to detect when uranium 
might be brought in by a container----
    Dr. Branscomb. We should certainly work at that, but it is 
very difficult to do because the materials are not very 
radioactive and they are easy to shield.
    Chairman Lieberman. We have had testimony here that one 
percent of the containers coming into the country are opened or 
checked in any way, mostly through paperwork, and not even 
opened.
    Dr. Madia. Detecting those kinds of materials is far easier 
than detecting the precursors to chemical or biological 
weapons.
    Chairman Lieberman. Yes.
    Dr. Madia. It is not easy, but it is far easier there than 
it is on chemical and biological.
    Chairman Lieberman. Dr. Read, talk to us a little about the 
state of activity in the private sector today. I know you are 
focused particularly on biotechnology responses. A new industry 
may emerge from this crisis which might be called the 
biodefense industry.
    But it is my impression both in this area, biodefense, but 
also in a whole host of other areas, that proposals are coming 
through the door to us about biometric devices to check people 
coming in through airports, for instance, etc. Part of this is 
the good old healthy American spirit of entrepreneurship, that 
this is a need, this is a new market, and so people want to be 
part of it, part of it because of profit motive, part of it 
patriotism. Am I seeing this correctly, and what kinds of 
activities are you seeing in your field that already hold some 
hope to protect the security of the American people here at 
home?
    Dr. Read. Well, clearly in the last 9 months, Senator, 
there has been a lot of new excitement about how people could 
apply technology they have already been working on to some of 
these problems, and we have already discussed the confusion 
that follows from trying to find a customer for that.
    DARPA, by the way, is a marvelous model for funding high-
risk early-stage work. I have had some fair interaction with 
them and various individuals there. It is a good team. They 
have a great culture to do this, and they have something else 
that I hope if you create SARPA that you will endow it with, 
which is a freedom to operate away from the unbelievably 
burdensome procurement rules that are part of most defense 
procurement. And so they have this other category. I do not 
know all the names here, but you know what I am speaking about. 
This is terribly important for small companies that cannot 
invest in all the infrastructure to comply with the FARs and 
the various rules. So that would be worthwhile.
    It should also be noted that the folks at DARPA often, at 
least in private, will express some concern that their 
customer, the DOD, when they throw a successful DARPA-sponsored 
research project over the wall that they do not even hear the 
splash on the other side. We should be careful not to focus on 
the process of getting a bunch of research started in these 
areas without very careful thought about who the customer is, 
the kind of deployment issues that were just discussed about 
the radiation sensors, for example, and also about how much of 
this ought to be done in the government and how much ought to 
be done in the private sector.
    The ground has been laid in the case of countermeasures 
against specific biological agents based on huge and successful 
investments in the basic science, underlying virology and 
microbiology, largely at and through the NIH. We have fabulous 
groundwork. It is our unique asset in terms of being able to 
deal with this. We really are prepared to then start 
translating that into specific vaccines for the highest risk 
threats, highest in terms of their availability, the agents' 
availability to the bad guys, highest in terms of their 
deployability, and highest in terms of their potential to cause 
panic and economic disruption because they are transmissible, 
for example, as opposed to a non-transmissible agent.
    So I am quite optimistic, and I have seen research programs 
targeting many of these animal pathogens or pathogens of people 
who live in the poorest parts of the world where we have the 
beginnings of programs that could be accelerated. Much of what 
is going to need to happen and most of the dollars to actually 
have something in a vial that could be drawn up in a syringe or 
given by a nasal spray or one of these other approaches is in 
the application research, the applied research, development 
research, the creation of manufacturing facilities, and so on, 
and that has historically been successful in the private sector 
and not as a function of the direct government facility or 
under government direct internal control, and so we need to 
organize for that. That is an important part that is missing 
right now, is the market signals that would justify the flow of 
private capital to finish the job.
    I am also very encouraged about high-risk, far-out ideas, 
which Dr. Hamburg might want to comment on the plausibility of. 
In the middle of an epidemic--perhaps you remember the movie 
``Outbreak,'' where Dustin Hoffman manages to get some serum 
from this fictional primate that is spreading the outbreak and 
something magical happens in test tubes and columns and stuff 
and they get a serum that he gives to his girlfriend in the 
movie and she survives.
    Well, Don Francis, who is one of our great AIDS researchers 
and discoverers, advised on that movie and he took me through 
it. Every part of that is unproven, but it is not completely 
implausible that we could develop tools that would allow a 
rapid response. We should not set expectations too high. These 
are long-term ideas. But, I see unbelievable stuff every day in 
business plans from very plausible, credible scientists related 
to biology and high technology. We do need to invest in some of 
that. We need to make it clear that there will be a market if 
we are successful.
    Chairman Lieberman. And this Department can send out some 
signals and give some incentives that would do that.
    Just to go back, what you are foreseeing is an age in which 
we are all going to be looking to take a vaccine that will 
protect us preventively. We are not just talking about 
treatment once, God forbid, a chemical or biological attack 
occurs, but to prevent it proactively.
    Dr. Read. These are complex threats that are going to roll 
out with more and more sophistication over many years as our 
opponents gain more technology, sophistication, and as state-
sponsored resources come to bear. We need things that can be 
held in reserve for the worst possible case.
    These may be products we would never dream of giving people 
under times of low threat. They may be vaccines or drugs with 
very high side effects, very serious mortality rates that we 
would never tolerate, but we want them in the stockpile. In 
fact, we may even want them forward deployed so on a hair 
trigger we could get protected.
    We may need to have things that are right out there 
available, and there may be threat levels, for example, in 
which we rethink the recent decision, which I would agree with, 
that we not vaccinate with the smallpox vaccine. But we can 
imagine a threat level, and maybe even future generations of 
smallpox vaccines that are so safe that the right thing to do 
is go ahead and immunize the population.
    Chairman Lieberman. Sure.
    Dr. Read. So it cannot be scattered throughout DOD and HHS 
and all these other departments. This new Department has to be 
the focus for getting the interplay between the characteristics 
of a particular countermeasure, its risks and benefits and 
pragmatic deployability, whether it needs freezers to be stored 
and so on, balanced with the----
    Chairman Lieberman. I find this exciting and also 
reassuring. I think part of our responsibility as leaders now 
is to be reassuring and part of our capacity to do that is to 
bring our enormous science and technology prowess to bear on 
these problems.
    I do not know if anybody else wants to give us a response. 
We always like to end optimistically.
    Dr. Branscomb. I would just like to pick up on this last 
point, because I believe that one of the keys to the success of 
this enterprise is to adopt a technology strategy that does, in 
fact, look for the concurrent development of technologies that 
do address the homeland security threat and at the same time 
either enable you to do that much cheaper than anybody thought 
you could, or equally important, provide civil benefits, just 
as, indeed, improving the public health capability will do.
    Chairman Lieberman. Sure.
    Dr. Branscomb. Our report gives a lot of examples of that. 
One of the reasons why I think that is very important is 
because there is another role for industry here. Industry owns 
and operates almost all the systems that are the vulnerable 
systems in the country, with the single exception of the 
cities. So they have to worry about being attacked as well as 
the fact that they do, in fact, do three-quarters of the 
Nation's R&D and clearly are a major asset there. If they are 
going to be the targets, why have they not made themselves less 
vulnerable? Answer: There is no market for being less 
vulnerable than they are. They are at equilibrium with the 
business justifications.
    And so there has to be a partnership between the government 
and those industries that will cause those, in some cases, very 
glaring vulnerabilities to be addressed collaboratively. 
Obviously, we can regulate them into doing it. We do not want 
to do any more of that than we have to. We could bribe them 
into doing it. We surely do not want to do that. So what is 
left, other than maybe some antitrust provisions that might be 
possible that would allow an entire industry sector to get 
together with the government present and discuss what they are 
all going to do voluntarily.
    But the other interesting one is the role of the insurance 
industry. I do not know if that has been brought to the 
Committee's attention----
    Chairman Lieberman. No.
    Dr. Branscomb [continuing]. But it is already true. I know 
people who are in the profession. They are engineers and 
technical experts in vulnerability analysis and risk analysis 
who are consulting with insurance companies who are now setting 
their rates so that the rate of the insurance depends on the 
extent to which the customer has, in fact, dealt with some of 
these terrorist vulnerabilities. But getting that technically 
correct is a big job, not just from individual consultants. 
That is, in fact, the job for the full brainpower of this 
Department.
    But there is an opportunity here for three-way 
collaboration between the technical capacity of the government 
that understands the risks and the likelihood of various 
technological ways of minimizing them, the insurance industry 
that can be the vehicle for translating that into a legitimate 
market force, and the industry itself that needs to buy that 
insurance.
    Chairman Lieberman. Very interesting, and it is optimistic 
because I will carry that news right back to Hartford with me. 
[Laughter.]
    I thank you all. You have been a very informed, 
constructive and helpful panel. We would like to keep in touch 
with you over the next couple of weeks as we begin to draft our 
bill.
    I am going to leave the record of this hearing open for 10 
days, if any of you would like to submit additional testimony 
for the record or if any of my colleagues who could not be here 
today want to submit questions to you.
    In the meantime, I thank you. I wish you a good weekend. 
The hearing is adjourned.
    [Whereupon, at 12:06 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0610.001

[GRAPHIC] [TIFF OMITTED] T0610.002

[GRAPHIC] [TIFF OMITTED] T0610.003

[GRAPHIC] [TIFF OMITTED] T0610.004

[GRAPHIC] [TIFF OMITTED] T0610.005

[GRAPHIC] [TIFF OMITTED] T0610.006

[GRAPHIC] [TIFF OMITTED] T0610.007

[GRAPHIC] [TIFF OMITTED] T0610.008

[GRAPHIC] [TIFF OMITTED] T0610.009

[GRAPHIC] [TIFF OMITTED] T0610.010

[GRAPHIC] [TIFF OMITTED] T0610.011

[GRAPHIC] [TIFF OMITTED] T0610.012

[GRAPHIC] [TIFF OMITTED] T0610.013

[GRAPHIC] [TIFF OMITTED] T0610.014

[GRAPHIC] [TIFF OMITTED] T0610.015

[GRAPHIC] [TIFF OMITTED] T0610.016

[GRAPHIC] [TIFF OMITTED] T0610.017

[GRAPHIC] [TIFF OMITTED] T0610.018

[GRAPHIC] [TIFF OMITTED] T0610.019

[GRAPHIC] [TIFF OMITTED] T0610.020

[GRAPHIC] [TIFF OMITTED] T0610.021

[GRAPHIC] [TIFF OMITTED] T0610.022

[GRAPHIC] [TIFF OMITTED] T0610.023

[GRAPHIC] [TIFF OMITTED] T0610.024

[GRAPHIC] [TIFF OMITTED] T0610.025

[GRAPHIC] [TIFF OMITTED] T0610.026

[GRAPHIC] [TIFF OMITTED] T0610.027

[GRAPHIC] [TIFF OMITTED] T0610.028

[GRAPHIC] [TIFF OMITTED] T0610.029

[GRAPHIC] [TIFF OMITTED] T0610.030

[GRAPHIC] [TIFF OMITTED] T0610.031

[GRAPHIC] [TIFF OMITTED] T0610.032

[GRAPHIC] [TIFF OMITTED] T0610.033

[GRAPHIC] [TIFF OMITTED] T0610.034

[GRAPHIC] [TIFF OMITTED] T0610.035

[GRAPHIC] [TIFF OMITTED] T0610.036

[GRAPHIC] [TIFF OMITTED] T0610.037

[GRAPHIC] [TIFF OMITTED] T0610.038

[GRAPHIC] [TIFF OMITTED] T0610.039

[GRAPHIC] [TIFF OMITTED] T0610.040

[GRAPHIC] [TIFF OMITTED] T0610.041

[GRAPHIC] [TIFF OMITTED] T0610.042

[GRAPHIC] [TIFF OMITTED] T0610.043

[GRAPHIC] [TIFF OMITTED] T0610.044

[GRAPHIC] [TIFF OMITTED] T0610.045

[GRAPHIC] [TIFF OMITTED] T0610.046

[GRAPHIC] [TIFF OMITTED] T0610.047

[GRAPHIC] [TIFF OMITTED] T0610.048

[GRAPHIC] [TIFF OMITTED] T0610.049

[GRAPHIC] [TIFF OMITTED] T0610.050

[GRAPHIC] [TIFF OMITTED] T0610.051

[GRAPHIC] [TIFF OMITTED] T0610.052

[GRAPHIC] [TIFF OMITTED] T0610.053

[GRAPHIC] [TIFF OMITTED] T0610.054

[GRAPHIC] [TIFF OMITTED] T0610.055

[GRAPHIC] [TIFF OMITTED] T0610.056

[GRAPHIC] [TIFF OMITTED] T0610.057

[GRAPHIC] [TIFF OMITTED] T0610.058

[GRAPHIC] [TIFF OMITTED] T0610.059

[GRAPHIC] [TIFF OMITTED] T0610.060

[GRAPHIC] [TIFF OMITTED] T0610.061

[GRAPHIC] [TIFF OMITTED] T0610.062

[GRAPHIC] [TIFF OMITTED] T0610.063

[GRAPHIC] [TIFF OMITTED] T0610.064

[GRAPHIC] [TIFF OMITTED] T0610.065

[GRAPHIC] [TIFF OMITTED] T0610.066

[GRAPHIC] [TIFF OMITTED] T0610.067

[GRAPHIC] [TIFF OMITTED] T0610.068

[GRAPHIC] [TIFF OMITTED] T0610.069

[GRAPHIC] [TIFF OMITTED] T0610.070

[GRAPHIC] [TIFF OMITTED] T0610.071

[GRAPHIC] [TIFF OMITTED] T0610.072

[GRAPHIC] [TIFF OMITTED] T0610.073

[GRAPHIC] [TIFF OMITTED] T0610.074

[GRAPHIC] [TIFF OMITTED] T0610.075

[GRAPHIC] [TIFF OMITTED] T0610.076

[GRAPHIC] [TIFF OMITTED] T0610.077

[GRAPHIC] [TIFF OMITTED] T0610.078

[GRAPHIC] [TIFF OMITTED] T0610.079

[GRAPHIC] [TIFF OMITTED] T0610.080

[GRAPHIC] [TIFF OMITTED] T0610.081

[GRAPHIC] [TIFF OMITTED] T0610.082

[GRAPHIC] [TIFF OMITTED] T0610.083

[GRAPHIC] [TIFF OMITTED] T0610.084

[GRAPHIC] [TIFF OMITTED] T0610.085

[GRAPHIC] [TIFF OMITTED] T0610.086

[GRAPHIC] [TIFF OMITTED] T0610.087

[GRAPHIC] [TIFF OMITTED] T0610.088

[GRAPHIC] [TIFF OMITTED] T0610.089

[GRAPHIC] [TIFF OMITTED] T0610.090

[GRAPHIC] [TIFF OMITTED] T0610.091

                                   - 

</pre></body></html>
